<html>
<title> - FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON THE READINESS OF THE ARMY AND AIR FORCE RESERVES AND NATIONAL GUARD FORCES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                         [H.A.S.C. No. 110-139]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2009

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                     READINESS SUBCOMMITTEE HEARING

                                   ON

BUDGET REQUEST ON THE READINESS OF THE ARMY AND AIR FORCE RESERVES AND 
                         NATIONAL GUARD FORCES

                               __________

                              HEARING HELD

                             APRIL 1, 2008

                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                  U.S. GOVERNMENT PRINTING OFFICE
45-068                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                         READINESS SUBCOMMITTEE

                   SOLOMON P. ORTIZ, Texas, Chairman
GENE TAYLOR, Mississippi             J. RANDY FORBES, Virginia
SILVESTRE REYES, Texas               WALTER B. JONES, North Carolina
LORETTA SANCHEZ, California          MIKE ROGERS, Alabama
ROBERT A. BRADY, Pennsylvania        JOHN M. McHUGH, New York
JIM MARSHALL, Georgia                HOWARD P. ``BUCK'' McKEON, 
MADELEINE Z. BORDALLO, Guam              California
MARK E. UDALL, Colorado              ROBIN HAYES, North Carolina
DAN BOREN, Oklahoma                  FRANK A. LoBIONDO, New Jersey
NANCY BOYDA, Kansas                  TOM COLE, Oklahoma
CAROL SHEA-PORTER, New Hampshire     ROB BISHOP, Utah
JOE COURTNEY, Connecticut            TRENT FRANKS, Arizona
DAVID LOEBSACK, Iowa                 CATHY McMORRIS RODGERS, Washington
GABRIELLE GIFFORDS, Arizona          DOUG LAMBORN, Colorado
ELIJAH E. CUMMINGS, Maryland         ROB WITTMAN, Virginia
               Paul Arcangeli, Professional Staff Member
                Lynn Williams, Professional Staff Member
                     Megan Putnam, Staff Assistant








                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Tuesday, April 1, 2008, Fiscal Year 2009 National Defense 
  Authorization Act--Budget Request on the Readiness of the Army 
  and Air Force Reserves and National Guard Forces...............     1

Appendix:

Tuesday, April 1, 2008...........................................    43
                              ----------                              

                         TUESDAY, APRIL 1, 2008
FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON 
  THE READINESS OF THE ARMY AND AIR FORCE RESERVES AND NATIONAL GUARD 
                                 FORCES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Forbes, Hon. J. Randy, a Representative from Virginia, Ranking 
  Member, Readiness Subcommittee.................................     2
Ortiz, Hon. Solomon P., a Representative from Texas, Chairman, 
  Readiness Subcommittee.........................................     1

                               WITNESSES

Blum, Lt. Gen. H. Steven, USA, Chief, National Guard Bureau......     4
Bradley, Lt. Gen. John A., USAF, Chief, U.S. Air Force Reserve...     9
McKinley, Lt. Gen. Craig R., USAF, Director, Air National Guard..     5
Stultz, Lt. Gen. Jack C., USA, Chief, U.S. Army Reserve..........     8
Vaughn, Lt. Gen. Clyde A., USA, Director, Army National Guard....     5

                                APPENDIX

Prepared Statements:

    Blum, Lt. Gen. H. Steven, joint with Lt. Gen. Clyde A. 
      Vaughn, and Lt. Gen. Craig R. McKinley.....................    55
    Bradley, Lt. Gen. John A.....................................   129
    Forbes, Hon. J. Randy........................................    50
    Ortiz, Hon. Solomon P........................................    47
    Stultz, Lt. Gen. Jack C., joint with Command Sgt. Maj. Leon 
      Caffie.....................................................    97

Documents Submitted for the Record:

    ARNG Equipment in States' Possession chart...................   147
    Equipment in States Possession map...........................   148

Witness Responses to Questions Asked During the Hearing:

    Mr. Courtney.................................................   154
    Mr. Forbes...................................................   151
    Mr. Jones....................................................   153
    Ms. Shea-Porter..............................................   153
    Mr. Taylor...................................................   153
    Mr. Wittman..................................................   154

Questions Submitted by Members Post Hearing:

    Mr. Loebsack.................................................   157
 
FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON 
  THE READINESS OF THE ARMY AND AIR FORCE RESERVES AND NATIONAL GUARD 
                                 FORCES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                    Readiness Subcommittee,
                            Washington, DC, Tuesday, April 1, 2008.
    The subcommittee met, pursuant to call, at 9:05 a.m., in 
room 2118, Rayburn House Office Building, Hon. Solomon Ortiz 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. SOLOMON P. ORTIZ, A REPRESENTATIVE 
          FROM TEXAS, CHAIRMAN, READINESS SUBCOMMITTEE

    Mr. Ortiz. Good morning. This hearing will come to order. I 
want to thank our distinguished panel of witnesses for 
appearing before the subcommittee today. And it is a pleasure 
to see you again and to work with you.
    Today the Readiness Subcommittee will receive testimony on 
the readiness posture of our Army and Air National Guard, Army 
Reserve, and the Air Force Reserve. The readiness of our 
Reserves and National Guard is a vital concern for this 
committee and the Nation. This is especially the case now, 
given the heavy reliance upon reservists and guardsmen, both at 
home and in combat in Iraq and Afghanistan.
    My friends, it is no secret that all of the services are 
experiencing readiness shortfalls. This subcommittee has heard 
in briefings and testimony the many difficulties our ground and 
air forces are experiencing as they try to maintain combat 
readiness. These reports cause great concern about the ability 
to sustain ongoing operations as well as potential future 
missions.
    These significant readiness shortfalls also extend to the 
National Guard and Reserves. And in many cases, they are more 
pronounced than the active component.
    Training and equipment shortfalls hinder the support that 
the Reserves provide to the active forces. In the case of the 
National Guard, these shortfalls also limit our ability to 
respond to emergencies at home.
    For example, the Army National Guard currently has an 
average of 61 percent of the equipment needed to support their 
state governors and their requirements. Believe it or not, this 
is a significant improvement over the 40 percent equipment 
average of prior years. And I applaud that progress.
    But 61 percent is just not sufficient preparation for 
emergencies at home. In my view, a 39 percent equipment 
shortage creates an unacceptable level of risk for an emergency 
response force.
    We certainly wouldn't want our fire or police service to be 
equipped with 61 percent of the equipment. And I understand 
that. I used to be a sheriff. And I hate to respond to 
emergencies of all kinds with only 61 percent, you know, of the 
equipment that I have.
    In addition to equipment shortfalls, I am also concerned 
about the Defense Department's plan to shift the Guard from a 
strategic Reserve force to an operational force. This is a 
historic change, and it raises serious questions about how the 
Department will resource the Guard to train, man, and equip to 
the level required of an operational force.
    I am also concerned about how the Guard will balance this 
operational role with its existing state missions. These 
equipping and training challenges are troubling. Today I hope 
you gentlemen will help us better understand the readiness 
difficulties that you face as you support ongoing operations 
and prepare for other missions at home and abroad.
    We understand how important your mission is, and we, the 
Congress, we want to help you. But we are relying on you to 
tell us what you need to restore the readiness of our Guard and 
Reserves.
    Gentlemen, I look forward to hearing your testimony.
    And now the chair recognizes the distinguished gentleman 
from Virginia, Mr. Forbes, the Ranking Member of the Readiness 
Subcommittee, to make any remarks that he would like to make.
    [The prepared statement of Mr. Ortiz can be found in the 
Appendix on page 47.]

   STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE FROM 
        VIRGINIA, RANKING MEMBER, READINESS SUBCOMMITTEE

    Mr. Forbes. Mr. Chairman, I want to thank you again for 
holding this hearing. And as we all know and you have stated 
before, the readiness of our troops is critical to our national 
security and success in the war on terror. The Department of 
Defense (DOD) continues to face budgetary pressures against the 
backdrop of the ongoing war on terror, continued high 
operations tempo, and a need to recapitalize much of its aging 
equipment.
    There is no doubt that the challenges the Department of 
Defense face are significant. Years of under-funded procurement 
accounts are manifesting in aging fleets of aircraft, ships, 
and vehicles. And this aging equipment is costly to maintain. 
It offers reduced reliability and requires increased manpower 
to keep it serviceable.
    The high mission capable rates and mission effectiveness 
ratings that are being reported are a direct result of the hard 
working, dedicated men and women serving this nation. Nowhere 
is this more evident than in the National Guard and Reserves. 
The Reserve component has faced many additional challenges 
because it started this long war postured, as you mentioned, as 
a strategic Reserve.
    For decades we have postured the National Guard with a Cold 
War mindset. We believed we could accept risk in equipping and 
training the Guard because we thought there would be a clear, 
unambiguous signal to get them ready. We also believed there 
would be sufficient time to field the equipment and get them 
trained before they would be needed on the battlefield.
    We have learned many lessons as we move into the sixth year 
of this global conflict. We have learned that there is not time 
to ready the Guard from a strategic reserve posture because the 
threat simply doesn't allow it, because the industrial base 
can't support it, and because natural disasters like Hurricane 
Katrina come with little or no warning.
    The need for a ready, well-equipped, and integrated Reserve 
component is clear. However, the shortfalls in equipment, the 
holes in the yard prior to 2001 make the Guard's transition to 
a modernized operational Reserve particularly challenging.
    Although substantial progress has been made, there is much 
more to be done. In 2001, the Army had a $56 billion shortfall 
in major weapons systems and modernization funding. The Army is 
now on a path to reduce that to $17.4 billion by 2013. The 
Reserve component was a large part of that number and will 
benefit greatly from investments being made to modernize and 
equip the forces.
    However, we must realize that we cannot snap our fingers 
and produce a Reserve component that is fully ready, regardless 
of the funds provided. Transitioning from a strategic Reserve 
to an operational Reserve would take years, even if there were 
no other demands on the National Guard and the Reserves. 
Navigating that transition while we are at war is what many 
have likened to changing the oil in your car with the engine 
running. Most would say it is possible, but it is not easy to 
do, and it is certainly not recommended.
    Unfortunately it is where we are, and we must be 
successful. In order to do so, we must be patient. We must have 
a solid plan of action. And we must provide the funding stream 
necessary to make it happen.
    I look forward to hearing from each of our witnesses. I 
thank them for the service that they do to our country.
    Mr. Chairman, I know you join me in recognizing that they 
have done a tremendous job in producing some of the greatest 
men and women the world has ever seen. We look forward to their 
discussion today on the readiness challenges that they face and 
the tools they need to get the job done for our nation.
    Thank you all for being here.
    And, Mr. Chairman, I yield back.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 50.]
    Mr. Ortiz. You know, today we are very lucky to have a 
group of very responsible and dedicated individuals. And we 
appreciate the work that you have done throughout the years, 
both representing the National Guard Bureau, the Army, and the 
Air National Guard, and the Army and Air Force Reserves.
    Today our witnesses are Lieutenant General H. Steven Blum, 
Chief of the National Guard Reserve.
    General, good to see you, sir.
    Lieutenant Colonel Clyde A. Vaughn, Director of Army 
National Guard.
    Good to see you again, sir.
    And Lieutenant General Craig A. McKinley, Director of the 
Air National Guard.
    Thank you, sir.
    Lieutenant General Jack Stultz, Director of the United 
States Army Reserve.
    General, so good to see you again, sir. I hadn't seen you 
in quite while.
    And Lieutenant General John A. Bradley, director of the 
United States Air Force Reserve.
    Without objection, all witnesses' prepared testimonies will 
be accepted for the record.
    And, General Blum, whenever you are ready you can begin 
your testimony, sir. Good to see you.

  STATEMENT OF LT. GEN. H. STEVEN BLUM, USA, CHIEF, NATIONAL 
                          GUARD BUREAU

    General Blum. Good morning, Chairman Ortiz, Ranking Member 
Forbes, and other distinguished members of the subcommittee. We 
the leadership of the National Guard, General Vaughn, General 
McKinley, and myself as well as our senior enlisted advisors 
here today are here to answer any questions you may have in an 
open forum on the readiness of the National Guard. Obviously 
because it is not classified setting, we will have to keep 
those answers generic. But we are more than willing to get to 
the issues at hand.
    This morning I am joined, frankly, by three excellent 
representatives of the 465,000 citizen soldiers and airmen that 
make up your National Guard. General Vaughn will introduce the 
Army representative from the Army Guard. And General McKinley 
will introduce the air representative.
    But first I would like to introduce my senior enlisted 
advisor that represents all 465,000 of those airmen and citizen 
soldiers. And that is Command Sergeant Major Dave Hudson, who 
is with me today. He is a long-serving law enforcement officer 
from the Alaska National Guard, has served in the Air Force as 
well as the Army. So he knows both sides very well. And he also 
understands the interagency, inter-governmental role the Guard 
plays when we are not overseas in support of the Army or the 
Air Force for the combatant commands.
    You are absolutely correct. This committee, thank you for 
having this most important hearing on readiness. Readiness 
requires three essential things for it to occur. You must have 
people. The people must be trained. And those trained people 
must have the equipment they need to do their--the tools to do 
their job in-hand.
    I think it would be best at this time to introduce the 
members that are brought with us, our special guests today and 
kind of let this committee focus their readiness issue to 
ensure that these magnificent men and women that serve our 
Nation and do what we ask them to do have at least the 
resources and the tools to do the job we ask them to do. So, 
General McKinley, if you would go first, please.
    [The joint prepared statement of General Blum, General 
Vaughn, and General McKinley can be found in the Appendix on 
page 55.]

 STATEMENT OF LT. GEN. CRAIG R. MCKINLEY, USAF, DIRECTOR, AIR 
                         NATIONAL GUARD

    General McKinley. Thanks, General Blum.
    Mr. Chairman, members of the committee, thank you for the 
opportunity to be here today. I am deeply honored to introduce 
my Command Chief Master Sergeant, Chief Master Sergeant Richard 
Smith, who is in the second row behind me. Dick Smith is in his 
fourth year serving as our senior enlisted advisor. And he 
hails from the state of Ohio.
    I am also deeply proud to introduce right behind me, Mr. 
Chairman, Master Sergeant Mike Keller. Mike is a C-130 
loadmaster from the 164th Airlift Wing in Mansfield, Ohio. He 
has been deployed in support of Iraqi Freedom and Enduring 
Freedom for over 500 days.
    And on one of his missions he was the loadmaster on a C-130 
with 59 passengers onboard whose landing gear was raised but 
was unable to be deployed. They flew around doing conference 
calls and were able to get the gear down saving those lives of 
59 people. He is a technician, but he has been a drill status 
guardsman in Ohio. He represents the absolute best and finest 
that we have in the Air National Guard. And we are deeply 
privileged to be in front of you today, sir, to answer any 
questions you may have.
    Thanks, Chief.
    General Blum. General Vaughn.
    [The joint prepared statement of General McKinley, General 
Blum, and General Vaughn can be found in the Appendix on page 
55.]

  STATEMENT OF LT. GEN. CLYDE A. VAUGHN, USA, DIRECTOR, ARMY 
                         NATIONAL GUARD

    General Vaughn. Chairman Ortiz, Ranking Member Forbes, 
distinguished members, a great honor and a privilege to be here 
this morning. I would like to introduce my Command Chief of the 
Army National Guard, Command Chief Thomas O'Sullivan from 
Massachusetts.
    It is a singular privilege to introduce this next great 
soldier. I want to introduce to you Staff Sergeant Brooks 
Shield. And his story is quite difficult sometimes to tell, but 
please pay really close attention because he represents the 
finest of the great patriot families that we have in the Army 
National Guard and across the other Reserve components that we 
have here today.
    Originally from Yankton, South Dakota, spent several years 
in Council Bluffs, Iowa, with the finest 168th Infantry of the 
Iowa National Guard, put in his 10 years, got out, had a 5-year 
break. And then upon hearing that the Charlie Battery, the 
first of the 147 Field Artillery out of South Dakota was going 
to Iraq, he enlisted. And he enlisted because his brother was 
the Platoon Sergeant in that formation, Platoon Sergeant, 1st 
Platoon, Charlie Battery.
    They trained for six months at Fort Dix. He was assigned as 
a squad leader in the 2nd Platoon, later to deploy into Iraq as 
some would talk about it as a sec four formation, but to train, 
deploy jointly with the Iraqi police in reconnaissance and 
security missions, and pull personnel service security 
detachment missions throughout Baghdad, mainly Eastern Baghdad 
operating out of Lafave there.
    Brooks, on the morning of 4 December, was in a Humvee 
getting ready to depart with is squad. And his brother, doing 
what great platoon sergeants do and rotating around and giving 
other members of their formation a chance to do something else, 
some of them going on leave, had volunteered and was a gunner 
in a Humvee that went out the front gate in front of him by 
about 15 minutes. Brooks later moved up to departure time out 
of the forward operating base----
    Mr. Ortiz. General, can you get closer to the microphone, 
please?
    General Vaughn [continuing]. Moved up to the forward 
operating base and heard there that there had been an explosion 
about two miles down the line. And they had some Humvees that 
were engaged with the enemy. And so, he moved out with his 
squad and there to find a couple of Bradleys from the 3rd 
Infantry Division (ID) there on location and went about the 
business of securing returning fire, rescuing, attending 
soldiers, one of which was his brother, put his brother in that 
Bradley and later returned to Lafave, and his brother was dead, 
killed in action.
    Brooks returned with his brother to Washington, D.C., came 
into Dover, had promised his brother that he would do some 
things with him when it was all over. And they, along with his 
brother, Richard, drove by the Supreme Court building, the 
Capitol and Arlington Cemetery, and then returned to South 
Dakota and buried his brother on a very cold wintry day.
    And then he returned to his unit to go through the full 
tour with a formation that lost four and had three hurt very 
seriously. He is an eighth grade school teacher, one of those 
individuals that makes a difference out there. He says we are 
making a great difference. And the biggest thing that he is 
proud of is the patriotism of those that step forward and serve 
their Nation when called, regardless of what they are asked to 
do.
    And it is a great privilege, you know, to be here with him 
and with a family that has given so much. I would ask that my 
statement be read into the record. I look forward to your 
questions. And I am going to turn the remaining piece of this 
discussion over to Steve Blum.
    [The joint prepared statement of General Vaughn, General 
Blum, and General McKinley can be found in the Appendix on page 
55.]
    Mr. Ortiz. Sergeant, thank you so much for your dedication, 
not only of you, but your family. And we are very proud.
    And for those folks that are here, this is the type of 
individual that we have as citizen soldiers serving our country 
today. Thank you so much, sir. Let us give him a hand.
    [Applause.]
    General Blum. Our third and final guest that is here today 
to see this important hearing and to participate today is----
    Mr. Ortiz. General, can you get closer to the microphone? 
Some of the members are having problems hearing.
    General Blum [continuing]. Sergeant Shield's wife, Joan. 
Joan is the wife of the soldier that General Vaughn just 
described. She is not only a wife, she is a teacher, a special 
education teacher in middle school making a difference for the 
future of our Nation in educating our youth. She has two sons 
and a 13-year-old daughter. The daughter's name is Clara. The 
two sons are named Jordan and Blake.
    She is very, very loving wife and mother. But she also does 
something very important for our Nation in addition to 
educating our youth and raising a good family and being a good 
spouse to a deployed soldier. She is the family readiness 
volunteer for Charlie Battery 147 Field Artillery in Yankton, 
South Dakota, which means all of the free time that she has is 
devoted to making sure that the citizen soldiers that are down 
range doing the kind of things that were just described by 
General Vaughn are taken care of back here at home.
    One of the things that this committee needs to make sure 
when we are discussing readiness is when we talk about people 
like Joan, that they are properly resourced and given the tools 
they need to do this important role in taking care of soldiers 
and their families before they are deployed, while they are 
deployed, and when they come home so that they are fully 
reintegrated back into our society. It is very important that 
we reset the force, not only with equipment, but we do it 
psychologically, emotionally, and otherwise.
    The practical reality is that this unit, Charlie 147, has 
been alerted for redeployment again in 2009. And Staff Sergeant 
Shield will deploy with that unit once again. And Joan will 
have to do the hard work with her volunteers yet again. I just 
want to make sure that we give these magnificent Americans the 
tools that they need to do their job in uniform and out of 
uniform, here at home and abroad and when they come back home 
so that we can have this volunteer force sustained as an 
operational Reserve.
    Because whether we want to debate whether it is an 
operational Reserve or not, or do studies about whether we are 
an operational Reserve or not, for the last seven years we have 
been an operational Reserve in reality. And we will be for the 
foreseeable future. It is time to get the authorities, the 
laws, the policies, and the resources in alignment to be able 
to sustain the magnificent effort of these magnificent young 
Americans.
    Thank you, sir. I await your questions.
    Mr. Ortiz. This is something, General, that I saw firsthand 
when I went to visit one of my National Guard units that had 
been deployed.
    Thank you, ma'am, for your great dedication and work.
    I ran into a school teacher as well whose brother had been 
deployed not once, but the second time. Some of the families 
were completely lost. They didn't know where to go. They didn't 
know what to do. And if it wasn't for people like you, it would 
be so hard on the families.
    And the committee and I have talked about this as to how to 
best handle that. And I can assure you, General, that we are 
working on it, and we are trying to do our best to facilitate 
and give the families what they need.
    Again, ma'am, thank you so much for the kind work that you 
have done.
    [Applause.]
    Mr. Ortiz. Now, who do we have next to testify?

  STATEMENT OF LT. GEN. JACK C. STULTZ, USA, CHIEF, U.S. ARMY 
                            RESERVE

    General Stultz. Yes, sir. It is General Stultz, the 
Commanding General for the Army Reserve Command. First of all, 
Mr. Chairman, Mr. Forbes, other members, thank you for the 
honor to come here today and testify before you about the 
readiness of the Army Reserve. I am here to tell you that the 
Army Reserve is answering the call. We currently have between 
25,000 and 30,000 Army Reserve soldiers mobilized at any given 
time, both here in the continental United States and the 18 to 
20 countries around the world serving our nation.
    I have submitted my posture statement for the record. And 
so, I did want to also introduce a couple of individuals. First 
and foremost, my Command Sergeant Major, Command Sergeant Major 
Leon Caffie. He is the senior enlisted soldier for the Army 
Reserve representing that 200,000 soldiers we have in our 
ranks. He is a Vietnam veteran. He is an Iraqi Freedom veteran. 
But more importantly, he knows what it means to take care of 
soldiers and take care of their families. And it is an honor to 
have him representing our senior enlisted ranks.
    I brought two individuals with me today also to introduce 
to you. This time last year when I was testifying, I also 
brought some great combat veterans from the Army Reserve to 
highlight what they are doing serving their country. But this 
year I really wanted to bring a couple of individuals that have 
yet to deploy.
    But it does highlight the quality of the force that we have 
in the Army Reserve. The first individual is First Lieutenant 
Villacorder.
    Stand up.
    I met Lieutenant Villacorder when I was over in Korea this 
past September. I was having lunch with a group of soldiers who 
were over there for an exercise. And I asked him, I said, 
``Where did you go to school?'' And he looked at me and said, 
``Grad or undergrad?''
    And I said grad school. And he said I got my doctorate at 
Massachusetts Institute of Technology (MIT). And I said what 
did you major in. And he looked at me like you won't 
understand. And he proceeded to tell me things about how you 
take mental images and thoughts and convert them into speech 
patterns or whatever. And I said what do you do for a living. 
And he said I work for a contractor, actually doing defense 
work.
    And I said doing what. And he said developing artificial 
intelligence for unmanned aerial vehicles and other systems. 
And then I had to ask the question, why are you here. Why are 
you here? You are a Ph.D. MIT graduate with a great career, and 
you are sitting here in front of me as a First Lieutenant.
    And he said, ``Sir, after 9/11, I volunteered and joined 
the Army Reserve as a Private because I wanted to serve my 
country.'' And that epitomizes the quality of the force that we 
have, individuals who have great educations, great careers and 
put it on hold and volunteer to go risk their life to serve 
their country.
    So I am not saying that every Army Reserve soldier out 
there is a Ph.D. grad, but what I am telling you is the quality 
of the force is unbelievable that we have right now. And it is 
soldiers like Lieutenant Villacorder that epitomize those great 
Americans that come from your state who put their life on hold 
to serve their nation.
    Now, the other individual I want to introduce is Private E-
2 Leticia Young. She just finished her advanced individual 
training this past January. She also epitomizes what the 
Reserve components, Guard and Reserve, do for this nation. 
Because you see, Private Young came from the inner cities of 
Memphis, Tennessee.
    Her mother is a single parent. She has three siblings. She 
is trying to support that family along with her mom. She is 
trying to take care of her siblings. She is the oldest of the 
four.
    She really doesn't have a whole lot to look forward to. How 
do I get out of this situation? How do I better my situation? 
And I can't leave my family. I have got to be there for them.
    And one of our general officers actually met her through 
church, going to church together and said let the Army Reserve 
help you. Let the Army Reserve help you out of this situation.
    So she enlisted in the Army Reserve. She went to training 
this past year at Fort Sam Houston. And she is now a dental 
assistant. She now has a skill.
    Next month she starts a job in Memphis, Tennessee, in a 
dental office working as a dental assistant. And she has 
already told me she is going back to school in August to start 
working on her degree.
    But the Army Reserve--and I highlight the Army Reserve, but 
any Reserve component it is not just about, you know, pulling 
people in to serve their country who are willing to serve their 
country. It is also about offering people the opportunity to 
better themselves and give back to the community.
    Just as we were talking about the school teachers here, now 
we have an individual that is a soldier for us, but she is also 
giving back to her community as a dental assistant. She is also 
helping her family. She has got a future. And the Army Reserve 
has been able to provide her a way out.
    So I just want to highlight for you today the goodness that 
we have in our forces in terms of the quality of the 
individuals, but also the goodness of what we are doing. You 
know, a lot of times we get criticized for the quality of what 
we are bringing in in some cases. We don't get credit for what 
we are putting out, what we are developing.
    So I look forward to your questions. It is an honor to be 
here. Thank you, sir.
    [The joint prepared statement of General Stultz and Major 
Caffie can be found in the Appendix on page 97.]
    Mr. Ortiz. Thank you, sir.
    General.

 STATEMENT OF LT. GEN. JOHN A. BRADLEY, USAF, CHIEF, U.S. AIR 
                         FORCE RESERVE

    General Bradley. Chairman Ortiz, Mr. Forbes, thank you. I 
appreciate the attendance of all the members here. I think 
these hearings are extremely important so that we can talk to 
you about our people and what we need to do the job our 
services and our Nation ask us to do.
    I did not bring any airmen with me today. But I want to 
talk to you a little bit about what our airmen are doing in our 
Air Force Reserve. And I am very proud of them.
    This is a readiness hearing. And our people are the 
readiness of our command. We are in 2 weeks going to celebrate 
the 60th anniversary of the Air Force Reserve. I believe we are 
the most ready force, the best-equipped and best-trained force 
we have ever had in our 60 years of existence as the Air Force 
Reserve.
    Yesterday I reviewed the readiness ratings of all of our 
flying units in the Air Force Reserve. And they are as high or 
higher than any in the entire Air Force. So I am very proud of 
the job my people and their commanders are doing in our units 
around the country.
    They are deployed at a great rate. We have got about 1,000 
people mobilized. But what we do in the Air Force Reserve as we 
deploy, we deploy more volunteers who are not mobilized rather 
than those who are mobilized so that we can save that 
mobilization when it is needed.
    We talk about moving from a strategic Reserve to an 
operational Reserve. And I personally believe that is a very 
good thing for us. We have been doing this for 15 years in the 
Air Force. Our Air Force has treated us well, given us good 
equipment and the right budget authority so that we can equip 
ourselves and train properly.
    My units have to be ready to deploy. Every one of my units 
has to be ready to deploy within three days. We do not train at 
home before we deploy for a major war campaign. We have to 
deploy in three days. So we do our training throughout the 
year. And it has been very effective.
    I have units today that are preparing to deploy to Iraq and 
Afghanistan to fly close air support missions for soldiers and 
Marines to take care of those folks that are doing that very 
difficult job on the ground. I have several units that are 
training today to deploy for the fourth and the fifth time in 
the last six years, and in one case, in the last four years.
    So I am very proud of the job that our airmen do. My 
deployments are not as long as the Army deployments and the 
Army National Guard and Army Reserve deployments. But when we 
send our people for three and four months at a time several 
times over the years, it adds up. And they have done a 
phenomenally good job.
    We do it with volunteers. Most of the people who go to fly 
our combat missions in Iraq and Afghanistan in the Air Force 
are not mobilized. They are done with strictly volunteers.
    At home we have a great set of missions that we conduct at 
home taking care of the homeland, flying through hurricanes to 
give warning to folks who live on the East coast and Gulf coast 
of the United States to prepare for storms. My hurricane flying 
unit during Hurricane Katrina had their homes wiped out around 
the Gulfport, Mississippi, area and along the coastline, and 
they continued to fly through the storms that were still 
approaching the United States in other areas, even though their 
families were back home trying to pick up pieces.
    We fly forest fire containment missions. And we also fly 
aerial spray missions in the Air Force Reserve in the homeland. 
We can respond to natural disasters.
    I said we are the best-equipped. That is because you have 
provided us, through the National Guard and Reserve equipment 
account, money that has allowed us to continue to modernize our 
aircraft so that we can be capable and relevant in today's Air 
Force.
    We have systems on our aircraft today thanks to your 
generosity in this Congress to give us this equipment. And I 
directly relate this equipment from the National Guard and 
Reserve equipment account to readiness and to saving lives of 
soldiers and Marines because we are more capable with the 
assistance we have doing our close air support missions.
    So I want to thank you for your generosity. I want to thank 
you for authorizing us to pay in some cases for travel for our 
reservists for inactive duty training. That is a brand new 
authority you gave us in the last authorization bill. And it 
will make a dramatic impact on our airmen who are displaced 
because of base closure and have to find new units that may be 
hundreds of miles away from where they actually live today. So 
thank you for that.
    Finally, I am very proud of our young airmen and soldiers 
and sailors and Marines. I believe this young generation--you 
have seen some of them today. Some are older. But there are 
many very young people out there, active, Guard and Reserve, 
serving our Nation.
    And in my 40 years of service I will tell you I think this 
is the finest group, most disciplined, most dedicated, 
professional group of young people we have had in my entire 
time in our Air Force. So I am very proud to get to lead for a 
few years the Air Force Reserve airmen. And this generation is 
serving our Nation with great distinction.
    I look forward to your questions. Thank you, sir.
    [The prepared statement of General Bradley can be found in 
the Appendix on page 129.]
    Mr. Ortiz. Thank you so much. I think that the American 
people today have seen what the citizen soldiers, what they do 
and how they protect our country, the dedication and their 
commitment. You know, what I see now is just like a moving 
vehicle. And this is how I see what the problems that we 
confront today.
    A moving vehicle full of occupants trying to get to the 
destination on the way might develop problems, flat tire, 
radiator, transmission. So what we are trying to do is to get 
that vehicle to that destination and to get those occupants 
safe.
    So what we are doing today is to see how we can work 
together by putting all these pieces together so that we can 
get there, but at the same time do our best to bring our young 
men and women back home safe. So what we are trying to do is to 
fix the pieces. And if it is a flat tire, let us fix it this 
morning. If it is a radiator, let us fix it. But we need to do 
something to get this thing done in a fair way that will 
protect our soldiers.
    General Blum and General Vaughn, I know from my visit to 
the Army National Guard units that equipment is often in short 
supply. And I have seen this. I have seen this many, many 
times. I went to a National Guard unit. And you have heard this 
story. They had deployed. They came back. And I went to visit 
with a family.
    All the children were there, their wives. They had just 
returned. And I asked him. Can I go see your equipment? And 
they looked at me, and they looked at the rest of the soldiers 
there. And they said what equipment. Our equipment was left 
behind in Iraq.
    So I have been trying to get a better understanding of the 
magnitude of Guard equipment, the shortages. And you have 
reported to us that the overall average of equipment available 
to support the governors' mission is 61 percent. Am I correct 
when I use that number?
    General Blum. Yes, Mr. Chairman, you are absolutely 
correct. Sixty-one percent is where we are today.
    Mr. Ortiz. Yes, sir. And recently the Army G-8 briefly 
committed that the Army Guard has 79 percent of its required 
items. I mean, this is a significant difference. And both 
numbers represent a huge increase of the 40 percent average 
that was reported last year. You know, I see a disparity here. 
Has the ruler that you measure equipment on changed?
    Are you and the Army measuring things differently? How has 
the equipment problem improved so significantly in 1 year? 
Because, you know, I still know and I still hear that sometimes 
they get to Kuwait and they might be short on equipment or they 
don't have enough training. Maybe you can enlighten the 
committee this morning as to the differences, what kind of 
ruler is the regular Army using and you are using.
    General Blum. Mr. Chairman, this is a genuine concern 
shared by the Secretary of Defense, the Secretary of the Army, 
the leadership of the Army, and, of course, the Army National 
Guard. Not so much the concern for the Air Guard because, as 
General Bradley said, the Air Force Reserve and the Air Guard 
have been superbly equipped as an operational part of the Air 
Force. They have operationalized their Reserve 30 years ago. 
And they are reaping the benefits of that investment today.
    The Army did not make that same choice, and we are not in 
the same place. In front of you you have our posture statement. 
In fact, all of the members of the subcommittee should have 
this at your desk.
    On page three, there is a very simple cartoon that 
represents in cartoon fashion the testimony given by Secretary 
Gates to the Congress of the United States a few weeks ago, and 
Secretary Geren in his testimony to the Congress a few weeks 
ago. I stand behind these numbers.
    In 2006, we had 40 percent of the equipment that we were 
required to have in the hands of our units available back here 
at home, which is called available to the Governors because the 
Governors are those Commanders in Chief that will call their 
Guard out in the next 10 minutes if a dam breaks, or if there 
is an earthquake, or if there is a terrible accident, or a 
terrorist attack, or a terrible weather catastrophe were to 
occur. It is essential that the Guard that is home have the 
equipment in their hands that they need.
    This unit that Sergeant Shield is a member of when they are 
not in Iraq has to respond to flooding in South Dakota. They 
must have the equipment and the vehicles and the radios and the 
medical equipment and so forth to be able to respond.
    2006 that was 40 percent. Secretary Gates testified that in 
2009 that figure will be 70 percent. And by 2013, if all of the 
money comes as programmed and as we expect and it stays and 
survives across the program, we will be in 2013 at 77 percent. 
So I don't want to argue with other people's figures and other 
people's numbers because you can calculate things in many, many 
different ways.
    But if you are asking me what equipment does the National 
Guard have in the United States immediately available to the 
units to respond if their Governors call them out today, it is 
61 percent this morning. And it will be about 65 percent by the 
end of this fiscal year.
    And then it will continue to improve every day as it has 
improved over the last two years because of several things: a 
serious commitment on the part of the Secretary of Defense and 
the Secretary of the Army to ensure that the Guard is equipped 
for this mission that is equally important here at home as the 
one we are doing overseas. There is a new recognition of that.
    Second, the tremendous attention to this problem given by 
the Congress of the United States and the real, tangible money 
that was authorized and appropriated mostly through the 
National Guard and Reserve Equipment Appropriation (NGREA) that 
really gets that equipment exactly into the hands of the units 
that you would want it to have in your district, in your 
congressional district where your constituents live and vote 
and serve. That is where we need to get that equipment.
    And we are making progress in that. Are we where we need to 
be today? No. Are we getting better each and every day? Yes. 
Will we get to the end state described in here? Yes, if the 
Congress stays dedicated to this issue and stays watchful that 
this money gets to where it is supposed to go, where it was 
intended to go.
    I think the senior leaders in the Pentagon today are 
dedicated to this. But we have to make sure that that 
dedication doesn't wane over the next four to five years as we 
get to where we need to go.
    General Vaughn, do you want to add anything?
    Mr. Ortiz. The only reason that I asked about maybe using a 
different ruler is because you have two missions. You know, one 
is to go into a war in a theater that is at war like we are now 
in Afghanistan and Iraq. But the other mission is domestically, 
you know, responding to what the issues might be for a fire, a 
flood. Isn't the equipment different from going to fight at a 
regular war theater than from responding to----
    General Blum. Mr. Chairman, that is an important 
distinction. When Sergeant Chiles was in Iraq, he had every 
piece of equipment that this Nation could put on him and his 
unit. He lacked for nothing.
    Is that right?
    Sergeant Chiles. Correct.
    General Blum. And that is tremendous testimony to the 
commitment of the Congress of the United States and the 
military leadership in the Pentagon to ensure that none of our 
soldiers or airmen, Marines or sailors go in harm's way without 
the equipment they need to perform their mission overseas. That 
is success.
    But that magnificent accomplishment had an unintended 
consequence of diminishing the equipment that was back here at 
home. We need to be ready for the overseas mission. I think 
that it is right that the National Guard and the Reserves 
should always be called when we put our young men and women in 
harm's way because when you call out the Guard and Reserves, 
you call out America. You bring out the will of the Nation.
    And that is extremely important when Joan's husband is 
overseas and her kids are back here. They want to know the 
American people are with them. And that does do that. But we 
also need to make sure that when the Governors call out or the 
President calls out the Guard back here in the homeland they 
are equally well-prepared to do the mission.
    Now, in the homeland fortunately we don't need to be 100 
percent equipped in artillery or tanks or attack helicopters or 
lethal weapon systems. But we do have to be 100 percent 
equipped in trucks, radios, medical sets, engineer equipment, 
command and control security forces so that we can deliver the 
essential 10 capabilities the American people expect the 
National Guard or the Reserves if they augment us in a response 
domestically. They need to have that equipment as well.
    So you are absolutely right. This subcommittee should be 
rightfully concerned that we are magnificently and adequately 
equipped overseas. But we should not do that by not paying 
attention to our preparedness because we have to be ready back 
here at home as well.
    The mission back here is a dual mission. So those pieces of 
equipment that we could take to war overseas, anywhere on the 
planet or help some international country out of a problem or 
help us with our national security issues have great utility 
back here in what we call the critical 10 area, which I just 
described.
    And we have worked with the United States Army to agree on 
342 line item numbers of equipment that fall into general 
purpose transportation trucks, aviation, general purpose 
helicopters that can fly medical supplies, take people off of 
roofs in a flooded area. In other words, they don't have to be 
armed helicopters. They just have to be utility helicopters. We 
have to have those.
    We have to have radios to be able to communicate and 
interface with other members of the Department of Defense that 
are responding to the event. We have to have medical sets to 
save lives and reduce suffering. We have to have engineering 
equipment to get in there to even get to the problem. And then 
we have to have engineering equipment to help clean up and 
mitigate the problem or deal with the after effects of it.
    They now have come to agreement with this. And General 
Casey, the Chief of Staff of the Army, has sent a letter 
unprecedented in the history of the United States. First time 
ever in the history of the United States the Chief of Staff of 
the Army has sent a letter to the Congress saying yes, the 
Guard does need this equipment. And by the way, if more money 
would be made available, this is exactly where that money would 
go to buy that equipment.
    So this is a magnificent step forward and a demonstration 
of the genuine commitment that the Chief of Staff of the Army 
and Secretary of the Army and Secretary of Defense and the 
Chairman of the Joint Chiefs, frankly, have really placed a lot 
of time and attention on this. And it is, frankly, a tremendous 
team effort because of the pressures and the attention the 
Congress has put on this, the assistance that the Congress has 
been willing to apply to this.
    And we are not where we need to be. But we are getting 
better every day. And I think we will be in an acceptable place 
in about 2013 at the current rate of the flow of the funds.
    Mr. Ortiz. We just hope to God that nothing happens between 
now and the year 2013. You know, one of the problems was that 
the equipment was left behind, and they need the equipment at 
home, as well, so that they can train. But I don't want to take 
all the time.
    Let me yield to my good friend, Mr. Forbes, for any 
questions that he might have.
    Mr. Forbes. Thank you, Mr. Chairman.
    And thank all of you. Today is a good day for us because 
having you come in here and testify--we just thank you for your 
service. We are all privileged in here. We have a great 
chairman. And also, the committee we get to serve on is 
probably the most bipartisan committee in Congress.
    So when you come in here today, you not only come in with 
your statistics and your testimony, but you bring individuals 
in here that just show the quality and the character of the job 
that you are doing. And we thank you for that.
    If a picture is worth 1,000 words, bringing in these fine 
men and women--I don't think we could put a number of words on 
that that you give us to show us what you are doing. I also was 
talking to General Blum right before we started. And I told him 
while you have enormous talent and wonderful people who serve 
beneath you, we thank you, too, because you are doing a 
tremendous job of training. I look at the people you are 
turning out and the kind of excellence that you do, and we just 
thank you for that.
    The other thing we also see--if any of you ever saw the 
movie Casablanca, at the end they have a statement that said 
round up the usual suspects. And when I turn on the TV or I 
turn on the Internet today or pick up a newspaper, the usual 
suspects are always in there telling us how the sky is falling 
and how everything is terrible.
    General Stultz, you talked about how they are always 
talking about the quality of people and then you bring in and 
say look at the quality of people we are turning out. And you 
are proud of that.
    And when you look at Sergeant--is it Shield? I have heard 
your name pronounced two or three different times today. Is it 
Shield? Is that correct? I mean, you can't do better. That is 
the best America has to offer. I mean, somebody that is 
teaching eighth grade, you know, goes over with the commitment 
you had for your brother and for your country. We just thank 
you for that and for all that you are doing.
    And I want to try to compare apples to apples here today 
because so many times we get apples to oranges. And one of the 
things that happened--I want you to take just a moment and help 
me with strategic Reserve and operational Reserve. And if I am 
off on this, correct me.
    But basically when we went from a strategic Reserve--is 
there anybody that is watching this or listening to this--we 
basically had a capacity that said we are going to have our 
requirements lower because if we need it, we are going to gear 
up then and we are going to produce and we are going to change 
our requirements. Operational Reserve we changed the 
requirements, and we say no, we are going to be in this state 
of readiness all the time. We are going to increase the numbers 
we have.
    Overnight when DOD comes out and says we are going to go 
from strategic Reserve to operational Reserve and they say your 
requirements are going to go from--let us take your fiscal year 
2001 requirements for just medium tactical vehicles, which were 
4,722 and then they come in and say and now you are going to be 
an operational Reserve so your requirements are going to be 
22,266. Overnight your percentages of equipment you would have 
would be enormously less in that percentage, even if you had 
more vehicles. Is that an accurate statement for everybody?
    So as I look at some of the information I have been given 
just for the Guard--although you are absolutely right. We are 
always going to have a long ways we need to travel and things 
we need to do. For just something like medium tactical vehicles 
if I just look at a percentage, it would lead me to think my 
gosh, we have got less vehicles than we had yesterday or the 
day before.
    But for example, in just medium tactical vehicles I could 
pull a number of statistics. In fiscal year 2001, we had 290 of 
them on-hand. Today we have got 9,280 of them either on-hand or 
pending delivery. That is a huge difference in the number of 
vehicles we have got today versus what we had yesterday. But 
the percentages might either be the same or less because our 
requirements that we have set out is greater. Is that not 
accurate? Anybody disagree with it?
    Now, one of the questions I would just ask you today--and I 
really have two questions and then a third one. And if you 
can't tell us today, if you could perhaps just get back to us 
on the record. But one of the things we are interested in is if 
you look at the requirements that you have and then you look at 
the President's budget and what we funded and what is in the 
supplemental, what is the shortfall in funding needs that you 
have? Because that is what we want to get our hand around. And 
if you can tell us that today, fine.
    General Blum.
    General Blum. Yes, Ranking Member Forbes. The Chief of 
Staff of the Army actually sent that over in a letter form 
about five weeks ago to Congress. That number is roughly $3.9 
billion. That is the differential. And that is his letter. And 
I stand behind it. I think he has got it pretty rock solid.
    Mr. Forbes. And do you give us a breakdown in that letter 
or at some other place of where that money would be allocated?
    General Blum. Yes, sir. He actually has in a second sheet 
to the letter, which is an attachment or an enclosure that 
lists exactly where that money would go and exactly what it 
would buy.
    Mr. Forbes. Thank you, General.
    General Blum. Yes, sir.
    Mr. Forbes. The second question I would ask for any of you 
is this. General Stultz talked about the quality of people that 
you are getting in terms of recruitment and retention. Can you 
describe for us any highlights or concerns you have in your 
recruitment and your retention? In particular, is there 
anything we need to give you in terms of tools to help you do 
the recruitment and retention that you are currently doing to 
get the kind of people that you brought with you today?
    General Vaughn. I can start, if that would be all right.
    Mr. Forbes. Yes, sir.
    General Vaughn. As you know, I think, we are doing 
extremely well in the Army National Guard. One of the issues--
and it hasn't been raised to this point, but you touched on the 
operational versus strategic Reserve. And it is equipment, and 
it is full-time support. And it is manning this force.
    We were only authorized in our units above and beyond those 
soldiers that were in the training pipeline about 82 to 83 
percent at the start of this war. And, you know, the myth goes 
that we would go to the training base and get filled up with 
soldiers out of the Individual Ready Reserve (IRR) or the big 
Army training base or wherever.
    Something that needs to be looked at very closely is that 
if you took Sergeant Chiles unit as he got ready to go, he may 
have been at 100 percent on the books. But there were 18 or 20 
percent of those soldiers that were in the training pipeline 
and counted against his unit.
    What we have to turn around is the authorization piece for 
our total strength. We have really got to look at making sure 
that we have 100 percent trained soldiers in our unit. And that 
means our training pipeline needs to come over and above our 
force structure. And today that training pipeline is embedded 
in those units.
    Right, Sergeant Shield?
    Sergeant Shield. That is correct.
    General Vaughn. That is exactly the way it is. And so, as 
an operational Reserve I will tell you that I think that we 
need to continue on this track today because we are fooling 
ourselves if we think we have got 100 percent personnel 
readiness in those formations. There is a structural deficiency 
in the Army Guard and Army Reserve that needs to be dealt with.
    It is a little more technical discussion, and we don't 
necessarily need to have it here. But we need to get the slide 
in front of you so you can understand that there is a 
difference between the active force with their over-strength 
and their trainees, transients, holdees and students (TTHS) and 
what we are doing in the guard and reserve today. And we are 
going to need help to continue to recruit.
    We are recruiting the highest quality force that we 
recruited in many years. In fact, we are recruiting the highest 
quality force we have ever recruited. What we need to do is 
continue on that track with the authorities and capabilities 
that you have given us until we make this an operational force. 
Thank you.
    Mr. Forbes. Thank you.
    General Stultz. Congressman Forbes, I would just--one, on 
the equipment side--and we will submit it for the record. But I 
can tell you the value of my total equipment right now that I 
am authorized in the Army Reserve is about $22 billion, of 
which I have got about $4 billion of the right equipment on-
hand.
    [The information referred to can be found in the Appendix 
beginning on page 151.]
    General Stultz. Now, you go through what is programmed for 
813, what is in the NGREA, what is in the supplementals and 
whatever, and it gets us down to about a shortage of about $7 
billion still left. So there is still a shortage left.
    The critical thing though is that that is programmed over a 
fiscal year 2008 to 2013 period of time while we are operating 
as an operational force right now. And what I am mostly 
concerned about and continue to focus on is to make sure that 
the equipment needs of the Army Reserve don't get slid to the 
right, you know, as somebody else comes in and says, well, we 
need those dollars for something else right now or we need that 
equipment for something else right now.
    And so, we are holding fast. And that is where the NGREA 
really helps us out. Because when we get the NGREA money, that 
is allocated for specifically the Army Reserve for our 
equipment. And it is more difficult for anybody to shift those 
funds around.
    But, you know, we started out in 2001. I had, I want to 
say, about 78 percent of the Army Reserve's equipment on-hand. 
As of right now, I have got about 66 percent. And a lot of that 
is because we left a lot of equipment in-theater that has yet 
to be replaced. It is funded, but it takes time to get that 
equipment replaced.
    And as General Blum and General Vaughn testified, that, a 
lot of times, that dual-use equipment with the Army Reserve 
with the combat support service support, you know, most all of 
our equipment is dual-use.
    Mr. Forbes. I don't want to take any more time. I know we 
have other members that need to ask questions. But if you would 
like, if any of you would like to submit any of that for the 
record, it would be very helpful for us in trying to see how we 
can help you and support you.
    And the last thing I would ask for the record--Joan, 
forgive me for calling you Joan, but I just want to identify 
you. I never call anybody out of the audience, but the 
witnesses pointed you out today. One of the things we 
understand is that there is oftentimes a difference between 
resources we see on paper and resources you actually get in 
your hands to do something.
    And I would really appreciate it if you could send us a 
letter or something that would outline the kind of resources 
you need and that you see every day that you think is important 
to help with the family situations that you have. It doesn't do 
us any good to have it on paper if it is not getting to you. So 
if you would let us know that, we would love to look at that, 
too.
    And with that, Mr. Chairman, I yield back.
    [The information referred to can be found in the Appendix 
beginning on page 151.]
    Mr. Ortiz. Thank you.
    Mrs. Boyda.
    Mrs. Boyda. Thank you very much.
    Thank you for being here. We are extremely proud of our 
guard and reserve in Kansas. I will mention that my husband is 
an 11-year reservist. So thank you so much for your service and 
for being here today.
    And I have two questions that I will just give, and then I 
will listen for your answers. One, back in January you invited 
us to a breakfast, a caucus breakfast. And what I heard very 
much at that point was something along the lines of medical and 
dental Reserve readiness so we make sure that these men and 
women who are trained and ready to go also have teeth that are 
ready to go. And I would just like for you to comment on that, 
what you need Congress to do, what the status of that is.
    And then I would also like your opinion--these are two 
very, very different questions. If something else, again, 
happens in the rest of the world as Afghanistan, Pakistan start 
to hopefully get under control, but, God forbid, went in the 
other direction, how are you ready to respond to those kinds of 
just strategic, additional strategic threats?
    General Stultz. Well, I will take on the medical, dental 
piece. There is a couple aspects of that because one, as we are 
talking about operationalizing the Reserve--and, as was 
mentioned earlier, that requires us to be at a higher state of 
readiness because unlike a strategic Reserve where you would 
have time to get your equipment, to get your training, to get 
your medical, dental readiness before you would be expected to 
employ, we don't have that now. As an operational Reserve, you 
are expected to be at a much higher state of readiness. So that 
is going to require us to maintain a higher state of medical 
and dental readiness in our forces.
    Mrs. Boyda. Are those programs in place?
    General Stultz. Ma'am?
    Mrs. Boyda. Are those programs in place?
    General Stultz. Not really because unlike an active duty 
soldier, I will equate it to this. If you are on active duty, 
you come back to Fort Hood, Texas. You are required to report 
to the dental clinic every six months. You are required if you 
have a dental problem to get it fixed. And the Army is paying 
for it.
    With a Reserve component soldier you come back from 
theater, you are demobilized. You go back into your civilian 
status. Now I can require a soldier to go get a dental checkup. 
But when he has a huge amount of dental work that needs to be 
done, it is very difficult for me to require him to get it 
done. He can't afford it.
    Mrs. Boyda. What do you think the answer is?
    General Stultz. Well, I think we have got to be able to 
provide some type of funding to provide regular dental checkups 
and dental readiness for our soldiers. Now, maybe we phase it 
in over time as in the force generation model where you are 
going once every five years. Maybe you don't do it in year one 
or two, but by year three, you have got to take care of that 
soldier's dental needs because you have got to have him ready 
and you have got to have him trained and be able to employ.
    So I think we have either got to provide the funding so 
that we can provide that dental care for the soldier----
    Mrs. Boyda. Excuse me. Is this on? Have the Guard and 
Reserves made those requests? Or are we putting those programs 
in place or that funding in place? Or what is the status of the 
actual request?
    General Stultz. Yes, we have put in requests for, one, we 
have what is called the Federal Strategic Health Alliance 
(FEDS-HEAL) program, which allows us to do that, contract for 
dental care. What we are requesting is to be able to do it 
sooner. Right now it kicks in at about 90 days prior to 
deployment. We need that in effect at least one year, hopefully 
two years out. And then we have got to have the funding to 
cover that.
    Second, we would like to have----
    Mrs. Boyda. I ask because I am also a member of the 
Personnel Subcommittee. So this is a chance to bring those kind 
of two issues--it is a personnel issue absolutely, but it also 
becomes a readiness issue.
    General Stultz. But we have a TRICARE dental program also. 
And one of the alternatives would be for us to fund to pay for 
that TRICARE dental program for our soldiers to provide ongoing 
dental care.
    Mrs. Boyda. Would somebody care to quickly answer the 
second concern that I had about where troop strength lies with 
regard to more strategic threats? I know that is a little bit 
more of a difficult one.
    General Blum. This group, this panel that is sitting before 
you does not really talk to that subject. But in an open forum 
that anyone could see or read about in the congressional 
record, let me say that we are not broken as the armed forces 
of the United States. There is tremendous capacity and 
capability still left in this Nation. And if something were to 
happen around the world, decision makers at the Pentagon would 
have to probably prioritize some other things that we are doing 
to accommodate that.
    But there is enormous capacity and capability still left in 
the land forces of our Nation, the air forces of our Nation, 
and particularly the naval forces of our Nation. So the 
American people should not be concerned that we are basically 
spent or we have spent all of our capacity and capability in 
the current effort. There is much, much more left that we are 
holding, many, many more military options and capabilities that 
we are not employing in the effort that we are engaged in right 
now because it is a different kind of effort requiring a 
different kind of skill set.
    But there is a great role that the Air Force and the Navy 
can play. And there is a great Army in the Army, active Guard 
and Reserve. There is great capacity still there as well. It 
even would be deeper and greater if we get this equipment 
problem fixed because then our capability and our inventory and 
our options even become--that reconstitutes your ability to 
have a strategic Reserve as well as an operational force.
    General McKinley. Ma'am, I would just say from the Air 
National Guard that General Bradley and I are very fortunate in 
that most of the airmen that we have used so far have done 
their duty in a volunteer status. That is the unique 
characteristic of having an expeditionary force.
    Therefore, General Bradley and I have not had an excessive 
mobilization, and our airmen are ready and trained and capable 
to assist our Air Force, both overseas and at home with our 
homeland air defense mission. So I would echo what Chief Blum 
said in terms of our capability.
    General Bradley. Ma'am, briefly, I agree with what they 
have both said. When you use an operational Reserve, it doesn't 
mean you are using all of it all the time. You are using pieces 
of it, so you still have an enormous strategic capacity left 
that could be mobilized and deployed very quickly, in the case 
of the Air Force. So I think you should not have a concern that 
we are over-used in this operational context so that there is 
still--so that there is not a strategic Reserve left. There is.
    Mr. Ortiz. Before I pass to Mr. LoBiondo, let me ask you a 
question about what is the story of the F-15s now. I know you 
have a huge responsibility to patrol the homeland. And I know 
we have some problems with them.
    Now, where do we stand with them? Or have they been fixed? 
Are they going to be able to return to be able to fly?
    General McKinley. General Blum, if you will let me take 
that.
    Mr. Chairman, obviously the aircraft that we lost a few 
months due to structural failure was an Air National Guard F-15 
from St. Louis, Missouri. That aircraft was discovered to have 
had a defective longeron in the aircraft from the time it was 
built. And that is an affect of our aging fleet of aircraft, is 
as they grow older and they are stressed. This aircraft 
literally came apart in mid-air. The pilot was seriously 
injured. However, he is recovered.
    And then the rest of the F-15s were grounded, looked at. 
And the majority of our F-15s now are back in flight. But it 
concerns me as the Director of the Air National Guard that we 
have lost five F-15s in the past year, two to mechanical 
problems with the rudder and the aileron interface. The 
structural failure that we had at St. Louis--and that, again, 
expresses the interest we all have in this aging fleet of 
aircraft that your Air National Guard and Air Force Reserve 
has.
    And the Chief of the Air Force has expressed his desires to 
modernize and recapitalize the Air Force. And that is what we 
have to participate in with him.
    Mr. Ortiz. So you feel that we are adequate with what we 
have patrolling our skies and protecting our homeland?
    General McKinley. Well, Mr. Chairman, as you are well 
aware, from Texas we had other aircraft that we were able to 
use in place of those F-15s that were grounded. General Bradley 
and I both put our F-16 fleet heavily into the air sovereignty 
mission to backfill those aircraft that were lost due to the 
grounding of the F-15s. So we had an adequate supply of other 
aircraft, Mr. Chairman.
    But the real serious nature is that those airplanes are 
growing older. The average age of our aircraft is approximately 
27 years old in the fighter community, older in the mobility 
and tanker community. And therefore, we have to have a capable 
recapitalization program that General Bradley's forces and I 
can participate in.
    Mr. Ortiz. Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    Good morning, gentlemen. Thank you for being here today.
    General McKinley, I especially want to thank you for 
bringing the air sovereignty alert mission to the forefront and 
for working so hard to address this issue. But as you know, we 
have had some conversations. I am very concerned about the 
level of funding allocated for the Air Sovereignty Alert (ASA) 
mission, which we all know, is almost exclusively National 
Guard with F-15s and 16s.
    Can you explain to us why we have an almost $35 million 
shortfall in the funding for the ASA mission?
    General McKinley. It is a tremendous concern to General 
Blum and myself as we look at the number one reason that our 
forces sit on alert here at home, is to protect the American 
citizens and our infrastructure, that we have to continually 
come back and through supplementals and through end-year 
funding sources try to compensate those who are serving. We are 
trying through the 2010 Program Objective Memorandum (POM) 
build to baseline air sovereignty. We have not been able to 
find exactly the right mechanism to do that. But the Air Force 
has been able in year-end execution to cover the gaps that we 
have.
    We do have about a $35 million gap in fiscal year 2009. So 
working with the Air Force, working with the funding sources 
that we have, my goal is to baseline that funding so that units 
like yours in New Jersey, the 177th Fighter Wing, can have a 
stable air sovereignty posture that we can have a very capable 
and competent workforce that is secure doing that mission. But 
we are still working on those linkages to fully fund sources 
for the air sovereignty mission.
    Mr. LoBiondo. Thank you. And I really appreciate your 
pressing on this. So if I am understanding you correctly, it is 
not having any effect on the mission now. You are attempting to 
baseline it so it becomes part of the budget. If it is not 
baselined, it is inevitable to have an effect in the future? Or 
how do you see that?
    General McKinley. Sir, it most definitely will create an 
imbalance. And where it really shows up is in the airmen that 
we employ in this mission. They are not stable. They don't have 
a predictable career path. We don't have the ability to sustain 
our force. And so, those are all negative issues which I know 
you and I discussed in your office. We need to fix that. And 
that is what baselining the mission will do for us.
    Mr. LoBiondo. Mr. Chairman, you raised the issue of the F-
15s. And I appreciate that.
    General, do you feel that the recapitalization is on track 
for Air National Guard for this purpose to accommodate the 
shortfall?
    General McKinley. Congressman LoBiondo, the truth is we 
have to have a proportionate rebalancing of forces. And at the 
present time, the roadmaps that I have been privy to show that 
the Air National Guard and Air Force Reserve are being involved 
in those decisions. But as I look out 5 to 10 years, many of 
the units that are in your states will need to be 
recapitalized.
    We will need to put more emphasis on that. We will need to 
work more with the Chief of Staff of the Air Force to ensure 
that there is proportionate recapitalization.
    Mr. LoBiondo. Thank you, General.
    Mr. Chairman, thank you for holding this hearing. If I may 
submit to you, Mr. Chairman, for consideration, this baselining 
budget issue is something that is critical to the entire 
nation. If there is something that we can do through this 
committee to help with that process, I would strongly encourage 
it.
    Mr. Ortiz. There are no objections. So ordered.
    Mr. Loebsack.
    Mr. Loebsack. Thank you, Mr. Chair. Is this working? Is it 
okay? Okay, thank you.
    Thanks to all of you for your great service. Sorry that 
Sergeant Shield had to return to South Dakota. But I certainly 
understand, his home state. But I am glad that you could spend 
time--that you and your spouse could spend time in Iowa for 
some time anyway.
    Often I follow Congressman Courtney here who knows a lot 
about submarines. And I usually say that we don't have a 
submarine base in Iowa. We have very few bases. We have nothing 
large in Iowa, let us put it that way. But we do have a number 
of National Guard folks and a number of Reserve.
    I am a freshman, and when I came to Congress, my first 
choice of committees had to be education and labor because I am 
a former educator. My wife is a former educator. And I had no 
choice. But my second choice was this particular committee in 
no small measure because of the prevalence of guard and reserve 
units and in addition to the regular military in Iowa.
    So I am really happy to be on this committee. And I want to 
second what Congressman Forbes said, too, about the bipartisan 
nature of this committee. I don't know, it may be an oasis in 
Congress at the moment, you know, in terms of its bipartisan 
nature. And I am happy to be a part of it in that sense.
    But I just want to focus on a couple things with respect to 
Iowa, if I may, in the little bit of time that I have. To date, 
the Iowa National Guard has mobilized about 10,000 soldiers and 
airmen in support of Operations Enduring and Iraqi Freedom. 
Every one of my constituents and every Iowan across the state, 
of course, is equally proud of the service and dedication of 
our National Guard men and women. They have answered their call 
to duty. And I think they have performed admirably over the 
years.
    However, as the Adjutant General of the Iowa National 
Guard, Major General Ron Dardis stated in his condition of the 
National Guard address to the Iowa legislature on February 19th 
of this year, the Iowa Guard and our Iowa National Guard 
families are ``stressed and strained.''
    Now, General Bloom and General Vaughn, according to the 
Army National Guard end strength and funded authorizations, I 
understand that the Army National Guard has a four to one ratio 
of part-time personnel to full-time support. In your testimony 
you state that ``Full-time support personnel are vital to the 
full spectrum of the Army National Guard operations. Meeting 
readiness needs especially in an era of persistent conflict 
underscores the vital role of our full-time support 
personnel.''
    That is your testimony on page 13. Now, the need for an 
increased ratio of full-time support personnel is critical, I 
understand, from my contacts at the Iowa Army National Guard, 
to the Iowa Army National Guard. And I understand that the U.S. 
Army plans to increase full-time levels by 2012.
    Would you be able to increase your full-time staff by 2010 
if authorized and funded? And can you highlight for the 
committee the readiness implications to the Army National Guard 
of not having adequate full-time support personnel to meet the 
needs generated by obviously the increasing operational tempo 
of the National Guard force?
    General Blum. Sir, sooner is better. If authorized and 
appropriated, we could hire those people immediately. The 
readiness implications of them are exponential. The reason that 
General Bradley can deploy his forces in 72 hours and General 
McKinley can deploy, direct deploy his forces right out of 
their home air bases in less than 72 hours is that they have 
adequate full-time manning.
    They are, the Air Force Reserve and the Air Guard, are an 
operational Reserve force and have been for three decades. The 
Army Reserve and the Army Guard are not resourced adequately at 
the full-time manning level to have the readiness this 
committee would expect us to have. So any increase in that 
effort would be greatly appreciated and would have a 
significant improving effect on the readiness of both the Army 
Reserve or the Army National Guard.
    And if General Stultz or General Vaughn want to comment 
further, I would invite it.
    General Vaughn. Congressman, the ramp or the authorization 
that these numbers of full-time support soldiers come to the 
Guard or Reserve was built on a model that was put together in 
1999 when it was a strategic Reserve. And that particular ramp 
calls for us to get about 1,400 soldiers a year in the full-
time support arena, in the Army Guard. Jack Stultz is a little 
bit different.
    Army has recognized that we have got as a cornerstone to 
make this full-time support percentage better. The problem is 
if it is a study, it is going to take a while for that study to 
get out of here. And that is going to put it beyond the 
deliberations of the cycle that we are in. So as General Blum 
said, we would appreciate being able to expedite and ramp this 
full-time support level up. And it does directly affect 
readiness just like equipment does.
    Two cornerstones, full-time support and equipment--the 
other piece, full-time--or a fully manned and supported force, 
which is the training resources it takes to get these folks 
ready to go into harm's way. Full-time support is a big deal 
for us. And we sure appreciate any efforts that could escalate 
that.
    General Stultz. Yes, I will just echo what they are saying. 
It is all about readiness. And in the Army force generation 
model that we used to build our cyclical readiness where you 
are building on a five-year cycle that we are trying to build 
to so that it takes one year, two years. And by year three, you 
are really into starting to train as a unit.
    And you really need to be able to put together that core 
team of that unit, the leadership and the support mechanism. 
That is full-time support.
    And if we don't have the full-time support, then it takes 
us longer to build that team to get ready and to build, not 
only the readiness we need to be able to employ immediately, 
but the readiness that we talked about earlier for strategic 
depth that we are having ready units that are sitting there not 
being employed because they have still got one or two years 
before they are expected, but they are at a higher level of 
readiness. So I echo everything that General Blum and General 
Vaughn said about sooner is better and more is better.
    Mr. Loebsack. Thank you very much, gentlemen.
    And, Mr. Chairman, I would like to submit a question to 
General McKinley for the record, if I may, as well. My time is 
up. Thank you.
    Mr. Ortiz. You hear no objection. All the questions that 
you might have will be submitted for the record.
    And now, Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman.
    Gentlemen, you can hear me? Generals, all of you, I am 
impressed by the commitment and the dedication you have to this 
country. It is commendable.
    General Vaughn, I will say first off that when you 
introduced the good Sergeant behind you, you undercut your 
argument. Anybody who can handle the raging hormones of eighth 
graders, military issues should not be a problem whatsoever.
    But I want you to know that for all the gentlemen and 
ladies who were introduced or sitting here, I am honored to be 
in your presence. And to be very honest, I feel inferior to the 
dedication that you exhibit every day in your commitment to 
this country.
    I also want to take as a basic understanding that I realize 
military funding is a major problem. In my personal view, the 
President's budget he sent up was not adequate funding for the 
military. The budget we voted on is not adequately funding the 
military. And to be honest, we have prioritized improperly our 
recapitalization, which harms the manpower issues. And that is 
inadequate.
    But--and that conjunction always means that is the end of 
my good stuff. Now I am becoming negative. You guys get paid 
the big bucks to make this work, regardless. I have a specific 
issue.
    And, General McKinley, I will address these to you. The 
Utah test and training range to me is still a priceless asset 
that we have. It is the only land-based range we have where 
everything can be tested. And since I came here, the entire 
delegation has worked hard to make sure there are no 
encroachments on that range.
    Presently the National Guard 299th Range Control Squadron, 
the air traffic controllers, are those that make it functional. 
The program budget decision 720, though, took all 102 part-time 
positions and half of the full-time positions away.
    At the beginning of March, the entire delegation from Utah 
sent you and General Blum a letter. We have yet to receive a 
response from that, not even an interim reply that you have 
received that particular letter that deals with manpower.
    In the meantime, a manpower study was conducted by the 
personnel professionals at Hill Air Force Base that concluded 
that at minimum 16 part-time positions need to be in here just 
to make sure that there is any kind of surge in program 
capacity at the Utah test and training range. So I have six 
specific questions.
    General McKinley, if I can address them to you. I want to 
go through them first, and then you can go back to them.
    Number one, is there any reason that I should suspect the 
accuracy of the manpower study that was done by the personnel 
professionals out there that says as a minimum 16 part-time 
positions need to be added back in to that program? And is 
there reason I should not take that as prima facie evidence 
that there is a need?
    Number two, is there any reason that Senator Hatch and 
Senator Bennett and myself should not be, pick a verb here, 
outraged, infuriated, upset, misguided that we have yet to 
receive a reply from our request that was sent up at least 
three weeks ago, not even an interim concept or understanding 
that we have received--that you have received the letter? And 
once again, your decision for the cut goes into effect today, 
and we have still not received a reply from your office.
    Number three, am I accurate in saying that certain 
positions have been added back by the National Guard from 
previous cuts? Number four, am I accurate in saying the Utah 
National Guard and Air National Guard have met or exceeded 
their retention goals?
    Number five, if you have some places where our 2 to 400 
positions that have been authorized short in their manpower 
assessment, do you actually think that there is not the 
possibility of coming with 16 part-time positions for this 
299th Squadron? Or do you actually think that General Tarbet 
should maintain a squadron of three?
    And finally, when can I expect some kind of solution to 
this problem, which in all respects I see as kind of a budget 
shell game between the Air Combat Command (ACC) and the 
National Guard. This is not a proposition from Lichenstein. To 
me, this is a small problem that can easily be solved. I would 
like to know when it can be solved.
    And in all due respect, General McKinley, you guys broke 
it. I want a solution from you.
    Now, those are the six ones. If I can have you go back 
through them.
    General McKinley. Congressman, those are great questions.
    Mr. Bishop. Let me just do them easily. Is there is a 
reason for me not to--and is there a reason for me to question 
the manpower assessment from the--the accuracy of the manpower 
assessment?
    General McKinley. Sir, if I can give you a straight answer, 
the assessment was done by folks in Utah. And manpower is a 
commodity today that is like gold. We are giving up manpower 
across the board.
    And therefore, when you make that assessment in Utah, I 
have to have my higher headquarters at Langley and here in 
Washington validate that. That is what we are in the process of 
doing, is corroborating exactly what you are saying at Air 
Combat Command and at our headquarters here in Washington.
    Mr. Bishop. So it may be accurate, and it may not?
    General McKinley. I believe the folks in Utah were 
absolutely right saying that is a requirement for them. I would 
like to be doubly careful to make sure that I can come to 
General Blum with a final answer. And I have not involved the 
Chief of the bureau yet. So I want to make sure we bring the 
best facts to General Blum that we can.
    Mr. Bishop. Number two, is there a reason we should not be 
upset by the lack of a response from your office?
    General McKinley. No, I think you should always be upset 
when we don't provide you a timely response.
    Mr. Bishop. Not that I think I deserve a response. It is 
just this issue deserves a response.
    General McKinley. Yes, sir, I agree. And I have been in 
contact with General Tarbet on several occasions. So he and I 
do have a very frank working relationship on this.
    Mr. Bishop. Has not our Guard and Air National Guard 
exceeded its retention goals?
    General McKinley. It has.
    Mr. Bishop. You actually think there should be a three-man 
squadron left out there to control this?
    General McKinley. No, we have to have adequate manning at 
that range that meets the requirements of the combatant 
commander and the people who do the training. And if I had an 
unlimited budget--it is an affordability issue. You have talked 
about it. And you have also said quite rightly that as we 
transition from a strategic to an operational Reserve there are 
more challenges to that budget.
    So we had to make some very tough choices. We did it across 
the nation. I could have probably five or six questions like 
this from members of this committee. And what I am trying to do 
is do the best I can for the United States. I need to present 
it to General Blum, and we need to give you the state of Utah 
final answer so that we can move beyond. But I understand this 
is a great capability.
    Mr. Bishop. Since the 720 decision went into effect today, 
when can I assume there will be a final decision and final 
report back to us on this particular issue? And once again, if 
I hadn't worked so hard to make sure that there were no 
encroachments on this range to maintain it, it may not have 
bothered me so much.
    I have no problems in accepting some cuts. But this is one 
of those things I think is putting us into the area of 
inability to operate the effectiveness of the range. So is 
there some kind of rough ball park of when we can anticipate 
that decision to be made?
    General McKinley. I am going to let the Chief answer that. 
I think he wants to give you a good answer.
    Mr. Bishop. General.
    General Blum. I don't know if I will give you a good 
answer, but I am going to give you an honest answer. It is the 
first time I have heard about it.
    You have got my attention. We are talking about 17 people 
for a national asset. I will get into it this afternoon. I will 
get you an interim reply this afternoon, even if it is by e-
mail or a telephone call. And then we will see. I don't know 
how quick I can resolve it because I don't own all of the 
organizations that really control this.
    But it sounds like a manageable level problem. And you will 
get a reasonable solution to it as fast as we really can get 
all of the moving pieces together.
    I apologize publicly. We should have sent those senators 
and Members of Congress an interim reply that said at least 
what I just said right now.
    Mr. Bishop. General, let me just say I don't think I could 
have asked for a better response. And I appreciate that 
response. And once again, I do appreciate what all of you are 
doing for the National Guard, for this Nation as well. That was 
more than an adequate response to my question. Thank you, sir.
    Mr. Ortiz. Thank you so much. Any information that you 
might come up with between now and then be sure to just relay 
it to Congressman Bishop. He has got some good, good questions.
    Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you.
    This question should be easier. It just requires a, ``Sure, 
we will do that.'' And this one is for General McKinley.
    And I would like to ask about the Air Guard in Portsmouth, 
New Hampshire. And the Air Force is currently having 
conversations about a number of new associate wings, including 
one for the KCX. And our wing, as you know, is operating KC-
135s. And we would be very interested in having a wing there. 
And we have a great Guard. It is enthusiastic, hard-working and 
a great deal of experience. And I wanted to know where the 
status of the conversation was at this time regarding Pease Air 
National Guard Base.
    General McKinley. The Adjutant General of New Hampshire, 
General Clark, and I have had many conversations on the ability 
of moving active duty people to Pease Air National Guard Base 
and make that an active associate wing. That is another 
byproduct of this operational Reserve, is that in the Air 
Force, in the Air National Guard and the Air Force Reserve we 
are going to get closer. We are going to work together better. 
And we are going to share the iron because there just won't be 
that much of it.
    So we are in the stages of talking to the United States Air 
Force and trying to figure out where that manpower would come. 
Air Mobility Command is the major command that owns the tanker 
assets in New Hampshire. So it is a three-way dialogue between 
the National Guard Bureau, Air Mobility Command, and the air 
staff here in Washington. And I can come by and give you an 
answer at your convenience, ma'am, and talk to you about the 
advantages of having an associate wing at Pease.
    Ms. Shea-Porter. And I can talk about the advantages, too. 
And I will take you up on that offer. Thank you.
    Mr. Ortiz. My good friend, Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much.
    And again, thank you for being here today. I sit here 
listening to your presentation, my colleagues' questions. And 
the words tough choice have been used a couple of times and, 
you know, resetting the equipment. And it all comes down to 
this government--not you, but we need to do a better job of 
prioritizing our spending is really what it comes down to, and 
especially in the world we live in today.
    Let me ask you, General Vaughn and General Blum, just what 
is the advertising budget for the National Guard.
    General Vaughn. Congressman, I hate to tell you, but I 
would have to give you probably something for the record to get 
right down to the number. For the advertising piece alone, I 
believe this is somewhere around $250 million. I know there was 
an article here the other day about how big this was, you know, 
in the papers. But they added several other lines on top of 
that.
    That particular budget hasn't grown much for the last three 
years. You know, it took a lot of effort to get where we are at 
today. So it is somewhere around $250 million. But I will have 
to get you the exact number on it.
    [The information referred to can be found in the Appendix 
beginning on page 151.]
    Mr. Jones. No, I was not being critical. That really was a 
friendly question.
    Yes, sir, General Blum.
    General Blum. It is an important footnote to add that in 
our advertising budget for the National Guard we are not funded 
or authorized to purchase on-air time on television (TV) media 
or radio. So we have no money, zero money for that. So our 
budget is completely for print items, brochures, other methods 
that we are using to get our advertising out.
    None of that is buying air time on TV or radio. And that is 
important to know. We are specifically precluded from that, and 
the other services are not. And that will help you understand 
the advertising budget differentials.
    Mr. Jones. I appreciate you bringing that up. And my staff 
is sitting here, and I would like to find out the rationale 
behind your statement. And again, the question about the 
advertising is a friendly question because the Reserves as well 
as the Air Force--I think you all have done a magnificent job 
in a very tough environment to maintain the numbers that you 
have.
    And I was very interested, and I saw a magnificent ad about 
the Marine Corps recently. And that is what brought it to mind, 
as a matter of fact. It is a wonderful ad of the Marine Corps. 
And then one about the Navy--and yet I know that you all are 
doing a splendid job back in the states to encourage men and 
women, many sitting behind you today, to give of their time and 
possibly their life for this country.
    General Blum, I wanted to go to in the few minutes I have 
left--I have been very pleased. I am one of the Members of 
Congress who feel that we must do a better job of securing our 
borders. Yes, we have a war on terrorism. Yes, we know where al 
Qaeda is and the Taliban. But, you know, there are a lot of 
people who believe, and people like yourself who are 
professionals and some of us in Congress, that we have every 
right to be concerned about possible terrorists down in Central 
and South America.
    And I read a very good article. It is very complimentary of 
the Guard. And I am being very complimentary as well--the 
Operation Jump Start program and the fact that what the Guard 
has done down to help the border agents secure the--and I 
understand that this program is going to end, I think, some 
time in July. Is that correct?
    General Blum. Yes.
    Mr. Jones. Okay. The $1 billion, I think, was the budget 
for the Guard to go down to be of assistance in protecting the 
security of this nation. What does that $1 billion--was that 
already appropriated for that program? Or was that monies you 
had to shift from one program to another?
    General Blum. I would like to take that one for the record. 
That is a pretty nuanced, complicated way that money was 
cobbled together for that mission. But it was appropriated.
    Once that mission was given to us by the President, the 
monies for that mission came through the Office of Management 
and Budget (OMB), the DOD. And then it was fairly much for the 
Army Guard taken out of the Army budget and moved other 
programs around to make that happen, and to a large extent, 
probably 80 percent of the money. And then the other 20 percent 
came out of the Air Guard because we did add Air National Guard 
down on the border as well.
    You are correct. The operation was hugely successful, 
continues to be and will conclude as scheduled on the last day 
of July of this year. That does not mean that there will be no 
presence of the National Guard on the border. It means 
Operation Jump Start, that specific operation that took 6,000 
Army and Air Guardsmen and put them on the border in four 
border states, will officially end.
    It is important also for this subcommittee to realize and 
remember that we have been on the border in support of counter 
drug for about 25 years with Joint Task Force (JTF)-6 and now 
JTF North. But the Guard has participated with active duty and 
civilian law enforcement, immigration control, Drug Enforcement 
Agency (DEA), and border patrol for about 25 years.
    We also for about 20 years did something called innovative 
readiness training where we would send engineers down on the 
border and signal communications units from the border and 
other type units on the border to do their military training 
for the wartime mission, which had a beneficial effect of 
improving the infrastructure, the road nets, the communication 
nets, and the barrier system that was on the border. The 
barrier in San Diego that is often held up as the gold standard 
was built by the Guard basically using innovative readiness 
training over a period of about, what, 12 years or 13 years, 
Task Force Grizzly and other thinks.
    So just because Operation Jump Start will draw down, the 
6,000 that we, hate to use the word surged, but we kind of 
surged to make happen for 2 years will come off of that in 
July. We are down to less than 3,000 now. And we are on exactly 
where we are supposed to be on what the President and the 
Secretary of Defense asked us to do as well as the four 
Governors.
    And now it is so successful obviously there are people 
saying, ``Wow, we probably ought to keep them here. They are 
that good.''
    I think you will see the Guard on the border in lesser 
numbers under different authorities for the foreseeable future, 
frankly. It won't just lights out, it is all over. But this 
operation will be terminated or completed. This truly is 
mission complete in a sense that we were given a mission two 
years ago. It was supposed to last two years. It was gradual 
withdrawal. And it was only funded and set up to exist until 30 
July. And it will essentially be over on 30 July, sir.
    [The information referred to can be found in the Appendix 
beginning on page 151.]
    Mr. Jones. Thank you, Mr. Chairman.
    Mr. Ortiz. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    And I want to thank the witnesses and your guests for 
joining us here today. And I just want to say that coming from 
Connecticut sometimes some people think I am a one-trip pony 
talking about submarines. But the fact of the matter is we have 
got a great National Guard in Connecticut, The Air National 
Guard.
    I think, General McKinley, you are going to join us on 
Saturday for the redesignation of the air wing. We look forward 
to that. And we have an Aviation Classification Repair Activity 
Depot (AVCRAD) unit in Groton, which is about to be redeployed 
to Iraq in multiple missions. So we are very proud of the Guard 
in Connecticut and the Reserves.
    I want to just follow up a question because there has been 
sort of a bit of a wrestling match over the last couple of 
years, which hopefully, I think, our committee resolved on the 
question of extending TRICARE coverage to Guard and reservists 
and just made it, I think, crystal clear that it is available, 
regardless of drilling status and active duty status. And I 
just wanted to see if you had any sort of update in terms of 
how that is being played out in terms of whether or not the 
word is getting out to people, whether or not they are 
enrolling. Certainly, in my opinion, if you are talking about 
advertising, that is an issue that should be extremely 
attractive to people that their families and themselves can be 
covered by a decent health insurance plan.
    General Stultz. Yes, sir. Let me first applaud Congress for 
getting that for us. We are really pushing hard to do exactly 
what you are saying, get the word out to the soldiers, to the 
families about that benefit and the fact that everybody is 
eligible for that benefit if they are in an active Reserve 
status now.
    The best indication I can tell you is in October of this 
past year, I think we had about 2,500 families signed up in the 
Army Reserve on the TRICARE Reserve Select. As of March, we 
have got 5,000. It has doubled in that amount of time.
    So that is an indication to us that the word is getting 
out. What we have got to do is work better, I think, with--one, 
I said this the other day. How do we get the word out to the 
parents of our kids that we want to be soldiers? You know, if I 
am a parent and I have got a child graduating from college and 
she is going to be uninsured.
    And so, I have got to figure out how am I going to make 
sure she is taken care of. I think if that is one of the things 
we could do to get the word out to those parents out there to 
help us in our recruiting efforts, to say, you know, this is 
kind of a safety net, an umbrella for your children. Serve your 
country, but also we are going to provide health care for them 
at a relatively inexpensive cost.
    But the word is getting out. It is not getting out fast 
enough. That is my problem. I have got to do a better job.
    General Bradley. Mr. Courtney, I would say this is a 
fabulous program. I want to thank the Congress for giving us 
this authority. And we spend a lot of time and effort trying to 
make sure that our airmen know what is available to them. This, 
as Joe Stultz says, is a very good recruiting tool. I think it 
is a fabulous retention tool as well. So thank you very much.
    Mr. Courtney. General Blum, did you want to----
    General Blum. I would echo what my colleagues have already 
expressed and highlight it and tell you that the people that 
are sitting at this table represent a force that on average 
about 7 out of 10 are married. And we are a slightly older 
force than the active duty force. So it has greater 
implications perhaps than are sometimes realized.
    I am pleased, frankly, that the Congress and the Department 
have really taken this on because I think Mrs. Shield back 
there will tell you how much it probably does mean to them and 
their family in the time that it has taken her husband to 
prepare to deploy, and then deploy, and then when he redeploys. 
It is a significant comfort, I would think. And I think that it 
probably helps her in her decision whether she is going to 
tolerate his presence in our formation long enough to be called 
again.
    Mr. Courtney. Just quickly, have you been able to tally any 
statistics or numbers like the Reserve has in terms of the 
change?
    General Blum. I could take that for the record. I would 
rather not throw a number out here that I am not certain with 
right now.
    Mr. Courtney. I think a lot of us would be very interested.
    General Blum. I think you will be pleased. It has great 
acceptance, is being well-received. And I don't want to give 
you specific numbers. I would rather take that for the record.
    [The information referred to can be found in the Appendix 
beginning on page 154.]
    Mr. Courtney. Thank you.
    Thank you, Mr. Chairman.
    Mr. Ortiz. Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    I want to thank all of you gentlemen for being here. A 
couple of quick questions. I always hear that our military 
trains as it fights. I have been sitting up here for a long 
time. I have heard that 17, 18 years running.
    Yet when I see troops deploying through, particularly 
troops in your commands deploying through Camp Shelby, I know 
that is not true. I know that in many instances the first time 
these troops will ever see a jammer is when they get to 
theater. I know that even now, what, four years after the start 
of this war, five years after the start of this war, kids are 
still rotating through Camp Shelby with a box on the front of 
their Humvee that says Improvised Explosive Device (IED) 
jammer.
    It is supposed to give them an idea. And interestingly 
enough, I have heard from the regular force on many occasions 
it is just something that you strap onto your vehicle and turn 
it on. On the flip side, in private, the military will 
compliment the Navy for supplying the electronics warfare of 
officers who go all the way to Iraq and Kuwait and explain to 
the troops that when the jammers on their radio may not work or 
that the terrain may affect that jammer or the distance between 
vehicles may affect their jammers. So it is simply not 
something you flip on and the thing goes to work and it is 
going to work right.
    So my question is at what point are the guard and reserve 
going to get all the jammers they need so that people really 
can train as they fight. Second thing is with Mine Resistant 
Ambush Protected Vehicles (MRAPs). Again, the President a year 
ago December only asked for 4,000 MRAPs because the 
congressional leadership were going to produce at least 15,000.
    But again, the troops don't see them until they get in-
theater. Now, I understand the importance of getting working 
MRAPs to the troops in-theater first. But it is still important 
to train as we fight.
    I came from manufacturing. Every manufacturer screws up. 
And I have got to believe that is the case for MRAPs as well.
    So my question is to what extent have your commands gone to 
the manufacturers of MRAPs and tried to get their seconds, 
vehicles that are good enough to train on but not good enough 
to deploy, that may have had a faulty well, that may be missing 
some part that the newer programs aren't but at least will give 
the troops as they rotate through Camp Shelby and the other 
training commands some idea of what they are going to expect as 
far as the characteristics of the vehicle.
    To what extent have you tried to work with the Marine 
Corps, which is in charge of this program, General Brogan, to 
see that maybe some of the seconds can make their way to these 
training commands so at least the kids get a--I call them kids 
because they are younger than me--the troops can get a feel for 
these vehicles before they deploy?
    Last, Congress last year very wisely passed the Guard 
Empowerment Act, which calls for the Chief of the Guard Bureau 
to be promoted to four-star status so that when the next 
Katrina hits that he will be sitting there on an equal basis 
with the active services to deploy, to help the communities 
around the country that are so necessary and know where all the 
parts are in order to make those things happen starting with 
the hurricane hunters before the storm, but also all the 
different units that were called on.
    And again, General Blum, my eternal thanks to you and every 
guardsman for the Guard units that came from all 50 states in 
two or three of our territories to help the people in 
Mississippi after Katrina. I know that is something that didn't 
just fall from the sky. It was well-orchestrated. And we will 
be eternally grateful for that.
    So when the next Katrina hits, to what extent has the Guard 
Empowerment Act been put in place by the President so that the 
Guard will be even better prepared than last time? I think that 
is three questions.
    General Blum. Let me try and take them in order and then 
jump in if you want to. Same here. The train-as-you-fight piece 
is a challenge. You have identified a problem that we all agree 
exists and we just spent some time as recently as Saturday in 
Atlanta with General Casey, the Chief of Staff of the Army, and 
the U.S. Army Forces Command (FORSCOM) commander, General 
Campbell, to address--that was one of the things we addressed 
down there.
    We are not yet where we want to be training exactly as we 
would fight. We are seen to be training as we fought fairly 
recently or some time ago. We want to get the system to where 
we are going to train these troops so that they have the 
equipment in their hands and the tactics, techniques and 
procedures in place so that it is what they employ and use on 
the battlefield.
    The innovation and the improvement of the equipment and the 
capabilities that our troops have in-theater because of the 
pressure and the generosity and support of the Congress has 
outpaced, frankly, our ability to do what you are describing. 
Nobody up here and nobody in the Pentagon, I don't think--at 
least I don't sense--wouldn't want to do what you are 
describing, Congressman Taylor. That is exactly where we should 
go.
    We talk about some hard decisions. The decisions are that 
basically push the MRAPs in-theater to protect the troops in-
theater. And I understand that that leaves us unable to train 
them on those equipment here. I, frankly, to be totally bluntly 
honest with you, had not considered nor did I know of what you 
were talking about with the manufacturers. And I wrote that 
down. I think we ought to----
    Mr. Taylor. Okay, to that point, one of the manufacturers 
is in West Point, Mississippi, so probably a four or five-hour 
drive from Camp Shelby. They tell me that they have--and I will 
refer to them as manufacturing seconds--sitting in the parking 
lot that are the property of the United States government that 
are good enough to train on but not good enough to field 
because of welding defects, et cetera.
    They belong to the Marine Corps under General Brogan. Camp 
Shelby obviously falls under your and General Vaughn's 
jurisdiction. The vehicles fall under the Marine Corps. And I 
would hope that somewhere between your jurisdiction and theirs 
we could get them down to Shelby to train with.
    General Blum. Sir, you have got my commitment. And we are 
going to take this and work with it. I don't think--you didn't 
know about that, did you? I never knew it until you just said 
it. So now that I know that, we are going to go after it. That 
is a source that may be an interim solution to what would 
ultimately--a better solution would be use the things that are 
exactly like in-theater.
    General Vaughn. And one other thing about that, 
Congressman. And, you know, you got after us pretty good about 
this MRAP thing some time back and the jammer piece. And it is 
a great thing you did. There is nothing--there is absolutely 
nothing more sacred than those soldiers understanding how to 
turn that jammer on and what it does. And they believe in it. 
And that is exactly what they want to do.
    All you have got to do is talk to these folks. And I was 
there three to four weeks ago with folks on MRAPs in the rock 
clearance business where they are dealing with a boom every 
day. And they want exactly what you said. So, you know, Jim 
Conway is a classmate of mine out of the same cowtown college 
maybe some people would accuse us of, you know, a state college 
there in Missouri. And I will go see him.
    But as far as jammers and just turning them on and not 
understanding, these folks want to know everything about that. 
And the deciphers out of Iowa--I spent a great deal of time 
with them, same thing. They said, ``Sir, we need to get this.'' 
And they went through Shelby.
    We need to get this down at Shelby right now. It is exactly 
what we need to be doing. And we banged on 1st Army. We banged 
on FORSCOM. And they got the same issues. I mean, we are trying 
to surge everything in. But at least we are catching up with 
what you told us we needed to do here, you know, a couple of 
years ago. We got it in spades, and we will get after that as 
soon as we leave here. Thank you, sir.
    Mr. Taylor. How about on the Guard Empowerment Act? What 
progress has been made, if any? Because again, Congress was 
very clear on that in passing it. It has been now 4 months 
since the bill became law. What is happening?
    General Blum. The Secretary of Defense put out implementing 
guidance and the schedule for when that would occur. I would 
have to take that for the record. And I am not really the guy 
in charge of implementing that guidance, as you, I think, well 
understand. There is no appetite on the Guard's behalf to make 
this slow down. In fact, this would be sooner is better as 
well.
    [The information referred to can be found in the Appendix 
beginning on page 153.]
    Mr. Taylor. Mr. Chairman, if I may, I would ask that you 
would consider that the committee send a letter to the 
Secretary of Defense asking him why it is taking so long to 
implement the law of the land.
    Mr. Ortiz. I think that is a fairly good question for us to 
do. And I think that most of the members of this committee will 
abide by his request. And we will send that letter. And 
hopefully then maybe you can (INAUDIBLE) that.
    General Blum. I just want to assure this subcommittee there 
is nothing that we are foot dragging on. The Guard Empowerment 
Act will take us to a much better place. And the sooner we get 
there, the better we will be able to serve the nation.
    Mr. Taylor. Thank you, Mr. Chairman.
    Mr. Ortiz. Thank you.
    Ms. Giffords.
    Ms. Giffords. Thank you, Mr. Chairman. I am appreciative 
that you are having this committee hearing today.
    And I want to thank all of our witnesses for coming. In the 
state of Arizona where I come from, General Rataczak does a 
terrific job as Adjutant General. And we are really proud to 
have him serve us in our state.
    I would like to follow up on the questions that were asked 
by Congressman Jones about Operation Jump Start. Let me tell 
you a little bit about what happens in my district. Just last 
year in the Tucson sector of the border patrol, about 380,000 
illegal immigrants were apprehended. And we also were 
responsible for apprehending about 45 percent of all the 
narcotics that are coming in, the drugs that are coming into 
the country. So it is pretty serious.
    So I am concerned about what is going to happen in mid-July 
when Operation Jump Start comes to an end. So a couple of my 
questions include whether or not there is a contingency plan if 
the President decides to change his mind and leave more of a 
force on the border. And also just following up, I believe it 
was General Blum that talked about you believe there will 
continue to be a certain kind of presence, but you said in 
lesser numbers and under a different authority.
    So I am curious what that would actually look like. I am 
concerned the border patrol is working extraordinarily hard. To 
date in my sector, 150,000 illegal immigrants have been 
apprehended. That is from October 1st to the present. So we 
still have a real problem and a real need.
    General Blum. This is fairly simple, the answer. If the 
President of the United States orders the National Guard to 
remain on the border, we remain on the border. He is the 
Commander in Chief. We will do the mission we are ordered to 
do.
    The mission that we have right now is to finish Operate 
Jump Start, terminate Operation Jump Start at about the 30th of 
July. It will trickle out and probably take me a little longer, 
maybe August, to get everybody out of there. But essentially 
what you knew as Operation Jump Start will be over at the end 
of July.
    Your district is particularly unique because the force 
structure in Arizona did not have all of the capabilities that 
we sent into the Arizona sectors to support the border patrol. 
So in Arizona most of the forces, most of the forces that came 
in, came in from other contributing states for relatively short 
periods, two, three weeks at a time and then rotated out.
    If the Department of Defense reinstates innovative 
readiness training, we could do some of those same tasks longer 
using innovative readiness training within the sectors in 
Arizona. Again, that has to be funded by the Department of 
Defense. It is not right now because when Operation Jump Start 
started, they zeroed out that money.
    That is a decision they could make to put some money back 
in there if they felt it was necessary. The Guard did not just 
unilaterally decide to go down on the border. We have to have 
authority to go down there. We have to have someone direct it. 
And then someone has to agree to fund it because it is not a 
free activity.
    In this case, the President of the United States sent 6,000 
guardsmen down there and paid for it out of DOD and left those 
soldiers under the control of Governor Napolitano. It was 
exactly the right way to do it. And it has been magnificently 
successful.
    We have done what we were supposed to do at what we 
envisioned would be necessary two and a half years ago. And 
this is one of those cases where we did exactly what we were 
asked to do exactly the way we were asked to do it, and it has 
worked out magnificently well.
    If in the view of the decision makers it is necessary to 
extend this, we certainly could continue the mission at reduced 
levels, I might add because our contribution in the overseas 
war fight right now is increased from where we thought it would 
be two and a half years ago. So to be able to sustain a 
specific number like 6,000, I would rather not be held to that.
    But we could keep a limited presence in there if so 
directed and so ordered to do it. So it is not like we don't 
have the capability to do it. But we do have to have the 
authority. And I don't order that authority in. As a matter of 
fact, that is done at the highest levels of our government.
    Ms. Giffords. Well, I am pleased to hear that, General 
Blum. And I know that Governor Napolitano has been quite 
outspoken about the success that we have had with the presence 
on the border. But I am concerned what is going to happen after 
July. And that is why I bring it up.
    If I can just do a quick follow up. I know I am out of 
time. But I want to just get this question in for General 
McKinley.
    As you know, the Air National Guard's largest operational 
fighter wing is the 162nd Air National Guard that is located in 
Tucson as well. And like many Guard units around the country, 
the 162nd flies the F-16s in defense of our nation. And as we 
all know, the F-16s are getting older, and there is a real 
concern.
    As I understand, just 1 year ago the Air National Guard had 
29 F-16 squadrons. In 2010, at least 3 years before the first 
operational F-35 squadron comes online, there will be 17. And 
then under current plans, 13 additional squadrons will retire 
their aircraft by 2018.
    So given the strong possibility that the F-35 fighter will 
be delayed coming online and the current retirement schedule 
for the F-16s in the Guard and the safety and the reliability 
issues that were mentioned earlier facing the fleet, can you 
talk about whether or not we are going to have a sufficient 
number of aircraft for defense of our homeland in the preceding 
years before the F-35 comes online?
    General McKinley. Again, that is a great question. It talks 
to our legacy fleet that General Moseley is trying to 
recapitalize. It is also talking to the aging problem that we 
are suffering across the Air Force and the Air National Guard 
and the Air Force Reserve.
    Tucson is doing a remarkable job with three different 
blocks of F-16s. They were built in series. So therefore, the 
Tucson issue is even more complex than a normal wing.
    Base realignment and closure helped us downsize 
considerably. And so, as we finish the base realignment and 
closure drawdowns, we are looking at trying to extend the 
aircraft as long as we can so that adequate numbers of fifth 
generation fighters to include the F-35 will be available for 
units like Tucson.
    So it is in balance. It is in flux. It has a lot to do with 
the will of the Congress, and our Air Force is seeking 
recapitalization budget. And as I said earlier, the 
proportionality of how that is distributed to the Guard and the 
Reserve is vitally important to all of us.
    Ms. Giffords. And just following up, General Moseley does a 
terrific job there added to the complexity of having so many 
countries come through, the language difficulty, the cultural 
difficulty. You know, I just don't want you to forget about us 
because they do a terrific job as the largest international 
schoolhouse in the F-16. But I am concerned about the issues 
that----
    General McKinley. It is a great unit. They have taken a 
great program in foreign military training to the highest 
levels. We need to preserve that capability. And we will 
certainly pay extreme care and careful looks at Tucson as we 
move forward, ma'am.
    Mr. Ortiz. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Lieutenant General McKinley, I wanted to ask a question 
concerning our combat air patrols over the homeland. We often 
refer to these combat air patrols as air sovereignty alert or 
ASA.
    Mr. Ortiz. Can you get, Mr. Wittman, close to the 
microphone? Is it on? It doesn't work. None of them work.
    Mr. Wittman. I will just talk a little bit louder.
    My question refers to the ASA or the air sovereignty alert 
system. The Air National Guard's unfunded requirements reflect 
a shortfall of about $34.4 million for ASA. And I was wondering 
if you could explain why that part of our mission is not being 
totally funded for defense of our homeland. It seems like those 
missions are extraordinarily important.
    And if you could describe what the impact is if we are 
falling short of funding that particular mission since it is so 
important----
    General McKinley. Yes, sir. Congressman LoBiondo and I 
discussed that a little bit earlier. I don't think you were in 
the room at the moment. But we discussed the need to baseline 
air sovereignty alert in the Air Force budget so that it isn't 
an appropriation that we have to seek in either a supplemental 
or a global war on terror (GWAT) type of arrangement.
    So we are looking and partnering with the United States Air 
Force to do that. You know, it crosses both General Bradley and 
my lane in that the Air Force Reserve sits air sovereignty 
alert for us also. General Renuart, the Northern commander, has 
a requirement for a certain number of full-time sites. And it 
is a high priority for the Guard. And I know John treats it 
that way for the Reserves. So for the record I will come back 
to you with several items, sir, and tell you how we are 
planning to do that.
    [The information referred to can be found in the Appendix 
beginning on page 154.]
    Mr. Ortiz. Thank you. Thank you, sir.
    I just have another question, you know--and other members 
of the panel. I know that in my district the Navy has a very 
successful partnership with the medical community in Kingsville 
that has resulted in well-trained military personnel and 
increased medical services in the district. Are there any 
initiatives to partner with the private sector, specifically in 
the medical field, to provide employment and training to the 
guardsmen or reservists for fielding critical shortages in 
communities where these personnel reside? And maybe do you have 
anything going on like this?
    General Stultz. Yes, sir. In fact, that is one of my major 
initiatives right now. If we are going to have an operational 
Reserve, if we are going to call upon these soldiers to every 
four to five years or whatever, leave their employers and serve 
their country, we have got to have a partnership with 
employers. We have got to have a strong relationship there. And 
they have got to be able to look at us as an advantage or a 
benefit versus a liability.
    One of the things that I have done is I started working 
with a lot of the chambers of commerce and various business 
forums around the country to talk about how to let us make the 
Army Reserve and the National Guard, the Reserve components 
really, a source of employment for them versus us coming to 
them and looking for them to be a source of soldiers for us.
    And I have said to them, you know, what you are looking for 
are employees who are drug free, physically fit, have a certain 
aptitude, have a background screening check done so that you 
know they don't have anything in their background and are 
trained. We are already doing that for you.
    So, for instance, meeting with the American Truckers 
Association where they have got a real concern about the aging 
truck driver fleet that they have got. I said we have got a lot 
of qualified truck drivers in the Army Reserve and National 
Guard that would be great truckers for you. We have just got to 
link together.
    So to your specific question, right here in the capital 
region, Inova Health Care is one of our large health care 
providers. I have got some of my doctors who happen to be--Dr. 
Chang, a doctor here in the local area who commands the 807th 
Medical Brigade in Seagoville, Texas. He has partnered with 
Inova Health Care to where we are going to be able to recruit a 
soldier or one of our existing soldiers and say if you want to 
be an x-ray technician in the Army Reserve, we can guarantee 
you a job in the Inova Health Care facility because they can't 
find x-ray technicians.
    And if we can go out and we will recruit them, we will 
screen them, and we will train them. All we are asking them to 
do is hire them. So Dr. Chang has already gotten a formal 
agreement.
    And we are getting ready to sign a memorandum of agreement 
with Inova to say we are going to go and recruit medical 
technicians, x-ray technicians, everything for your hospitals, 
put them in our formations as soldiers in our medical units 
that will go and save lives in-theater. But when they come 
back, it is adding back into the community.
    We are getting ready to sign some other agreements with 
some of the trucking association members to do the same thing 
for truck drivers. We are talking to law enforcement agencies 
across this country of how we can use our military police, our 
soldiers that are trained to fill their ranks for law 
enforcement.
    So, yes, sir, you are right on target. I think the success 
to sustain an all-volunteer force for the future in the Reserve 
components is going to have to be that that soldier looks and 
says being in the Army Reserve is going to enable me to have a 
career in my community. That is exactly why Private Young is 
here. She is doing that.
    She joined the Army Reserve. And now she has got a career 
in dentistry. We are going to do more of that. Yes, sir.
    Mr. Ortiz. This is great. I see the local program in 
Kingsville, Texas. And I am so happy that you support it. And I 
hope that we can expand it.
    Any other panel member would like to expand on this 
question that I just asked?
    General Blum. I think General Stultz captured it well. But 
it is interesting to know that in addition to the service that 
the National Guard and Reserves provide, we are probably the 
largest vocational training school in the country. And we are 
really providing the trained expertise that is needed in the 
private sector industry and in particularly, in the medical 
health industries.
    So that is not often always immediately and obviously seen. 
But it is some value added that these citizen soldiers bring. 
And not only do they defend our Nation and help their 
neighbors, but they are adding value to their communities every 
day in ways that most people don't see that are invisible. So 
that training account that General Vaughn is talking about, not 
only contributes to military readiness, it also builds our 
civic base, our civilian bases and our industry and our 
businesses.
    Mr. Ortiz. Anybody else? If not, let me yield to my good 
friend, Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    Just once again, thank you for your testimony. I just have 
one quick question.
    I am assuming that all of your testimony here today was 
based on--your readiness situation is based on a timely 
implementation of the 2008 supplemental, assuming that that 
would be delayed for some reason. What impact would that have 
on your testimony and your readiness concerns?
    General Blum. A late arrival to supplemental puts our very 
ability to even fund statutory requirements at risk. We can't 
pay our soldiers probably after June after we do all the--if we 
don't do extraordinary measures, we won't even be able to go 
into May and June. But if the supplemental does not arrive, we 
won't be able to pay our soldiers. It will stop our recruiting 
machine.
    It will basically interrupt and break our contract with 
465,000 citizen soldiers and their families and their 
employers. And it will have a devastating affect on readiness 
and our recovery from--depending on how long we are left in 
that situation, the recovery for that will be longer and longer 
and longer based on however long we are in that situation. It 
is like an assembly line. If you turn it off, it takes some 
startup time.
    The longer it is left off, the longer it will take and the 
more money it will take to bring it back to where it was when 
you shut it down. This is an unintended consequence of the way 
we are funding the Guard and Reserves so heavily in the 
supplemental vis-a-vis the base budget.
    Mr. Forbes. We are looking at April 1st today. When do you 
start feeling the pain of that delay?
    General Blum. Two weeks. Two weeks we will have to do some 
dramatic reprogramming just to keep the organization afloat. 
And then we will be out of tricks by about June.
    General Stultz. I will tell you one other thing I would add 
to that, too, is, you know, we talked about the equipment we 
left in-theater and the Army replacing that equipment. The 
money for that is in that supplemental. And so, the longer we 
wait on the supplemental, the longer we wait to get the process 
started to get that equipment back into the hands of our 
soldiers and back here to support the homeland when needed.
    Mr. Forbes. And so, General, you would say, as General Blum 
said, that much past two weeks from now starts becoming fairly 
significant to you in your readiness concerns?
    General Stultz. Yes, sir. We would have to start taking 
steps to start saving money so that we can at least pay the 
soldiers. And so, we are going to have to get that money from 
somewhere else.
    General Blum. And when I say we will be out of options--it 
is a better word--I said that we would be out of tricks by 
June. I mean we are out of options. And those options include 
the ability of the United States Army to help us. They actually 
become out of options a little bit before--almost about the 
same time we do, just about days apart. But we are both big 
Army, the Guard and the Reserve are all out of options by June.
    Mr. Forbes. Well, we certainly hope that we don't put you 
in that position. But we just wanted to get that on the record 
so that hopefully we won't be there.
    Thank you, Mr. Chairman. I yield back.
    Mr. Ortiz. Thank you.
    Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you, Mr. Chairman.
    My question has to do with a problem that I have been told 
about that is impacting some guardsmen and reservists. And 
first let me thank those sitting behind you who have served our 
country so well. And this question really is for those of you 
who have experienced it.
    It is my understanding that occasionally--and we don't know 
how many times--the pay--they are overpaid. The reservists and 
the National Guard units are overpaid. And when the DOD goes to 
collect the money, they take it in a lump sum. And it leaves 
the families in a bad position.
    And I wanted to get a sense of how often does this happen 
and what is being done to address it. It is very tough on 
morale. And it is tough on the families' finances.
    General Blum. Well, when that occurs, there are--
interventions are possible. And I will only speak for the 
National Guard right now, the Army and Air Guard. When, in 
fact, that happens, the Adjutants General and the United States 
property and fiscal officer that works for us and them on 
behalf of the soldiers you see behind us can take--they have 
options.
    They have interventions that they can take to reduce or 
mitigate the unintended consequence of pulling all that money 
back at one time. And they can take it back in installments. 
There are many, many options available. If you will allow me, I 
will take that for the record, if you want, and give you what 
is available.
    But the command can intervene. And they can mitigate or 
reduce the unintended consequences. We don't need to punish the 
family or the soldier because they were improperly paid. I 
wouldn't call them overpaid. I don't think these guys and girls 
are overpaid. But there are times where they get more 
compensation than they were supposed to legitimately receive. 
And so, it is our fiscal responsibility, statutory 
responsibility to recoup those funds. But we don't have to do 
it in a Draconian method.
    [The information referred to can be found in the Appendix 
beginning on page 153.]
    Ms. Shea-Porter. Right.
    General Blum. Jack, do you want to talk about that at all?
    General Stultz. I would just add, yes, Steve has got it 
right. We are seeing less and less of those issues. I think 
part of the issues that grew out of some of the pay issues were 
as we really went from being a legacy strategic force into the 
operational force and mobilizing on a regular basis, our 
systems weren't prepared. And so, we had soldiers coming off 
active duty but yet continuing to get paid in some cases, or in 
some cases, getting some of the combat exclusion pays and 
things like that that continued once they got back.
    I will tell you within the Army Reserve that system has 
been cleaned up dramatically. And so, we are not seeing as 
many. When we do have those issues, just as General Blum said, 
we do have the capability to look at the situation. We don't 
want to put this person into financial distress. So we can 
spread those payments, repayments out over a period of time or 
we can work something out to be able to make it more bearable 
to them when it is our responsibility to recoup it.
    Ms. Shea-Porter. I would like to say that while I know that 
you are trying to address that, I heard it in Iraq and Kuwait 
last week, two weeks ago. And I heard it again in my own state. 
And so, I would like to discuss that further. And I do think 
that the problem is stemming from, you know, somewhere in the 
DOD and probably rather than work on mitigating it, that we 
need to have another look at that.
    I spent a period of my life living on military pay when I 
was an Army spouse. And it is important. And I think that, you 
know, we have the technology. We need to take care of that.
    General Blum. First of all, I appreciate the Members of 
Congress taking that as part of your interest. And second of 
all, when you do discover these things, it would not be harmful 
at all if you share that information with us because maybe 
somebody needs a little bit of adjusting of how they see or 
view the problem.
    Ms. Shea-Porter. Okay. All right. Thank you very much.
    Thank the chairman.
    Mr. Ortiz. Thank you so much. You can be assured that the 
members of this committee want to work with you. Some of us 
have seen, you know, military time before. I was in the Army. 
And I spent some time in the Reserves. We want to work with 
you.
    And I think that this was a very positive hearing that we 
had today. Even without the microphones we could still 
understand one another and what the needs are.
    So if there are any more questions, this hearing stands 
adjourned. And thank you so much for your service, those of 
your, not only the officers, but enlisted men and women and, of 
course, your families. The meeting stands adjourned.
    [Whereupon, at 11:20 a.m., the subcommittee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                             April 1, 2008

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 1, 2008

=======================================================================


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 1, 2008

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 1, 2008

=======================================================================

      
             RESPONSES TO QUESTIONS SUBMITTED BY MR. FORBES

    General Stultz. The Army Reserve is authorized $22.6B worth of 
equipment. We currently have only $4.1B worth of modernized and 
compatible equipment on-hand that matches our structure. Current 
shortfall, the difference between equipment required and equipment on 
hand, is $18.5B.
    Funding has been identified in the FY08-13 Program ($7.9B) and the 
FY07 Main and Bridge Supplemental ($1.51B) and the FY08 Supplemental 
($1.80B). Additionally, the Army Reserve received limited NGREA and 
Congressional Add Funding in totaling $0.44B in FY05-08. Programmed 
budget funding, Supplemental and Congressional Adds totaling $11.65B 
reduces the equipment shortage to $6.85B.

        <bullet> $7.9B programmed in POM 08-13

        <bullet> $0.53B in the FY07 Main Supplemental

        <bullet> $0.98B in the FY07 Bridge Supplemental

        <bullet> $1.80B in the FY08 Main Supplemental

        <bullet> $0.44B in NGREA and Congressional Adds in FY05-08

    $11.65B of the shortfall is currently funded in the FYDP; leaving 
an unfunded requirement of $6.85B. [See page 18.]

    General Stultz. See below:

        <bullet>  Before 9/11, the Army Reserve, as a strategic 
        reserve, expected to mobilize at and was resourced to meet 75% 
        of wartime requirements.

        <bullet>  The Army Reserve had 78% of its wartime required 
        equipment in 2002, but only 22% could be considered ``fully 
        modernize''.

        <bullet>  During OEF/OIF, mobilization standards changed to 
        100% of wartime equipment and some older equipment could not be 
        deployed.

        <bullet>  Almost all of the Army Reserve's ``fully modernized'' 
        major end items went to theater and stayed there, representing 
        20-75% of our HMMWVs, LMTVs, MTVs, M915A3/4s, HEMTTs and HETs.

        <bullet>  Currently the Army Reserve has 66% of its wartime 
        required equipment.

        <bullet>  Without additional equipment it would be very 
        difficult to support any additional contingency, foreign or 
        domestic, of the size of OEF/OIF. [See page 18.]

    General Blum. Each year, the National Guard Bureau develops a list 
of the ``Essential 10'' Equipment Requirements for the upcoming fiscal 
year (FY). The list identifies specific dual-use equipment systems 
which are valid military requirements, unfunded in either the budget 
request or the program. The items on the list contribute significantly 
to the ten essential capabilities, which the States have communicated 
to us as important in the ability of the National Guard to respond to 
emergencies in the homeland. The ``Essential 10'' list is published 
through the National Guard Bureau's Website.
    The ``Essential 10'' list for FY09 identifies $2 billion of Army 
equipment (banded in $500 million priorities) and $500 million of Air 
National Guard equipment shortfalls. This list was referenced 
specifically in both the Fiscal Year 2009 National Defense 
Authorization Act and the Defense Appropriations Act. Those 10 
essential missions include: Joint Force Headquarters Command and 
Control; Civil Support Teams; Maintenance; Aviation; Engineer; Medical; 
Communications; Transportation; Security; and Logistics.
    The Army National Guard Essential 10 equipment list includes $2 
billion total, with the following breakout; $168,446,201--Joint Force 
Headquarters Command and Control; $88,078,192--Civil Support Teams and 
Force Protection; $48,538,700--Maintenance; $100,500,000--Aviation; 
$129,189,968--Engioneering; $8,747,691--Medical; $145,282,865--
Communications; $1,149,270,128--Transportation; $68,179,473--Security; 
and $93,766,782--Logistics.
    The Air National Guard equipment list includes $500 million total 
with the following breakout; $27,000,000--Joint Force Headquarters 
Command and Control; $21,400,000--Civil Support Teams and Force 
Protection; $13,400,000--Maintenance; $158,500,000--Aviation; 
$31,200,000--Engineer; $33,900,000--Medical; $72,300,000--
Communications; $52,100,000--Transportation; $74,500,000--Security; and 
$15,700,000--Logistics. [See page 18.]
    General Bradley. In addition to the normal wear and tear on our 
equipment while prosecuting the GWOT, we have a number of initiatives 
to upgrade and protect many of our facilities. We have an immediate 
need for communications warning systems, as well as, barriers in and 
around our bases. Support equipment transformation is also required due 
to age, accelerated wear and tear, and theater losses. The lack of 
additional resources will not prevent the AFR from resetting in the 
future, however, to respond to future requirement, as well as it has in 
the past, additional resources are needed. [See page 18.]


------------------------------------------------------------------------

------------------------------------------------------------------------
C-130 LARGE AIRCRAFT INFRARED       33.4       Modifies 14 C-130H and C-
 COUNTERMEASURES (LAIRCM)                       130J aircraft fleet with
                                                AN/AQQ-24 LAIRCM;
                                                greatly enhances
                                                survivability against IR
                                                threats
------------------------------------------------------------------------

C-5 AIRCRAFT DEFENSIVE SYSTEMS      15.5       Equip the 15 remaining
 (ADS)                                          unprotected AFR C-5As
                                                with ADS allowing them
                                                worldwide access to
                                                fully support the Global
                                                War on Terrorism (GWOT)
------------------------------------------------------------------------

C-130 SECURE LINE OF SIGHT/          8.4       Modify AFRC C-130s (28
 BEYOND LINE OF SIGHT (SLOS/                    aircraft) with ARC-210,
 BLOS) CAPABILITY                               Model 1851A and Joint
                                                Range Extension Gateway
                                                (JRE) that provide
                                                secure line-of-sight and
                                                beyond line-of-sight
                                                capability.
------------------------------------------------------------------------

A-10 INFRARED MISSILE WARNING        5.0       Modifies 27 A-10s with
 SYSTEM (MWS)                                   MWS; integrates missile
                                                warning into the ALQ-213
                                                Counter Measures Set;
                                                allows faster, automatic
                                                responses to IR threats
------------------------------------------------------------------------

C-130 APN-241 RADAR                 14.8       Fund APN-241 radar,
                                                spares, sustainment, and
                                                contractor support for
                                                remaining 17 unmodified
                                                AFRC C-130H2 aircraft
------------------------------------------------------------------------A-10/F-16/HC-130 MISSILE WARNING     3.0       Improve and integrate the
 SYSTEM (MWS) UPGRADE/                          existing Electronic
 REPLACEMENT                                    Attack (EA) for A-10 and
                                                F-16 and Electronic
                                                Protection (EP) for all
                                                three.
------------------------------------------------------------------------C-5 LARGE AIRCRAFT INFRARED         90.0       Procure and install
 COUNTERMEASURES (LAIRCM)                       LAIRCM on 9 AFR C-5
                                                aircraft. Advanced IR
                                                countermeasures are
                                                required to mitigate
                                                significant risk of
                                                aircraft damage and
                                                loss.
------------------------------------------------------------------------C-130 SURFACE TO AIR FIRE            1.9       Procures troop doors with
 (SAFIRE) LOOKOUT CAPABILITY                    large square window/plug
                                                that increases the field
                                                of view for the
                                                loadmaster/scanner.
------------------------------------------------------------------------C-5 STRUCTURES                      22.0       Procures and installs 2
                                                Aft Crown Skin/Contour
                                                Box Beam Fittings kits
                                                for AFRC C-5A aircraft
------------------------------------------------------------------------C-5 SMALL ARMS FIRE (SAFIRE)         8.5       Modifies 21 AFRC C-5
 LOOKOUT CAPABILITY                             aircraft with bubble
                                                scanning windows and
                                                tactical harnesses (84
                                                total kits) at paratroop
                                                doors
------------------------------------------------------------------------

------------------------------------------------------------------------------------------------------------------------------------------------
LITENING POD SPIRAL UPGRADES        25.0       Upgrades 25 LITENING
                                                pods; modular design of
                                                the LITENING Targeting
                                                Pod lends itself to
                                                upgrades as technology
                                                advances.
------------------------------------------------------------------------C-130 TACTICAL DATA LINK (TDL)       6.3       Provides real time C2
                                                link to 32 C-130
                                                aircraft; maximizes
                                                situational awareness
                                                and survival
------------------------------------------------------------------------C-5 YOKE MOUNTED EXPENDABLE          2.0       Procures 20 YMEDS kits
 DISPENSE SWITCH (YMEDS)                        for AFRC C-5 aircraft;
                                                allows manual
                                                expenditure of
                                                countermeasures
------------------------------------------------------------------------C/HC/MC-130 CRASHWORTHY              3.0       Procures stowable
 LOADMASTER SEATS                               `crashworthy' seats for
                                                the loamaster/scanners;
                                                allows crewmembers to be
                                                secure while scanning
                                                for threats during
                                                takeoff and landing
------------------------------------------------------------------------MC-130 COMBINED ALTITUDE RADAR       4.6       AFRC's 10 MC-130E Combat
 ALTIMETER (CARA)                               Talons require the
                                                current HG9050 radar
                                                altimeters be replaced
                                                with CARA
------------------------------------------------------------------------

                                 ______
                                 
             RESPONSE TO QUESTIONS SUBMITTED BY MR. TAYLOR
    General Blum. The changes made by the National Guard Empowerment 
Act are far reaching and historic. At the National Guard Bureau, we are 
actively engaged with the Department of Defense to implement those 
changes. We are working with all stakeholders to finalize a new charter 
for the National Guard Bureau. We are satisfied that this issue has the 
attention of leaders at the highest level of the Department and that 
progress is being made. [See page 35.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. JONES
    General Blum. In the Fiscal Year (FY) 2006 Supplemental, Congress 
appropriated $708 million of two-year money for Operation Jump Start 
(OJS). At the end of FY06, the Office of the Secretary of Defense-
Comptroller (OSD-COMPT) requested and the Appropriations Committees 
approved the transfer of $415 million of unexecuted money from the 
Katrina appropriation to the OJS account.
    In the FY08 budget, Congress appropriated $247 million for OJS. the 
OSD-COMPT plans to transfer $57.5 million of FY08 Operation and 
Maintenance, Defense Wide from other areas to pay for the balance of 
OJS. The National Guard spent $211 million in FY06, $687 million in 
FY07 and expects to spend $304 million in FY08 for a total of $1.2 
billion. [See page 30.]
    General Vaughn. The Army National Guard's (ARNG) total advertising 
budget for Fiscal Year 2008 (base funding plus supplemental funding) is 
$235.9 million. The annual advertising budget, as prescribed in the 
FY08 Presidential Budget, is $87.8 million. In support of the ARNG's 
aggressive end-strength, recruiting and retention missions, an 
additional $148 million was provided in the FY08 supplemental 
appropriation.
    For this year, the Air National Guard's advertising budget is $19.4 
million dollars. This figure reflects the FY08 appropriation of $6.3 
million dollars and $13.1 million dollars redirected within the Air 
National Guard program. [See page 29.]
                                 ______
                                 
           RESPONSE TO QUESTIONS SUBMITTED BY MS. SHEA-PORTER
    General Blum. When debts are created against a Soldier, the Soldier 
is notified in writing by the agency creating the debt. The debt letter 
gives the Soldier 30 days for due process, as outlined in the 
Department of Defense Financial Management Regulation, Volume 7A, Ch 5, 
para 500104.A2, unless prior consent has been given by the Soldier to 
begin the collection. The notice will stipulate: nature and amount of 
the debt and intent to collect from pay, the member has the opportunity 
to inspect and copy records related to the debt, the member has an 
opportunity for review of all the decisions related to the debt, the 
member has an opportunity to enter into a written agreement with the 
Secretary of the Military Service concerned (or designee) under terms 
agreeable to both parties to establish a schedule for repayment, any 
portion of the debt remaining uncollected at the time of the member's 
separation shall be collected from the member's final pay and 
allowances, member has the right to seek waiver or remission of the 
debt, if appropriate.
    Debts are normally collected at rate equal to 2/3rds of a Soldier's 
base pay until the debt is paid off. If the 2/3 collection rate is 
determined to be unfeasible because of a proven hardship, the debt can 
be prorated to collect at a daily rate, per the recommendation of the 
Soldier's command, until the debt is paid in full.
    The Army National Guard has a process outlined in Army Regulation 
600-4 (Remission and Cancellation of Indebtedness) that establishes 
what types of debts can be remitted or canceled and the procedure the 
Soldier must follow to request such action. The objectives of the 
remission or cancellation of debts are to affect those debts that are 
determined to be unjust and those debts that create undue suffering or 
a hardship. [See page 41.]
                                 ______
                                 
             RESPONSE TO QUESTIONS SUBMITTED BY MR. WITTMAN
    General McKinley. We continue to work with the Air Force to fully 
fund Air Sovereignty Alert (ASA). This critical mission is part of 
every budget formulation submittal and competes against many 
requirements. The $34.4M shortfall included on our FY2009 National 
Guard Bureau Budget Card incorporated converting 155 enlisted part-time 
billets to full-time--allowing our ASA units to maintain their post-9/
11 manning levels and it included funding for 104 Title 5 civilians in 
Command and Control. Additionally, it included the cost of 79 pilots 
that we have resolved funding for through Air Force and Air Combat 
Command (ACC).
    During FY2008, ACC agreed to fund 155 enlisted positions for the 
first quarter of the fiscal year. After that, the National Guard Bureau 
redirected $11M in funding for those positions for the remainder of 
FY2008. This $11M did not include unfunded officer positions costs that 
NGB was already absorbing in ASA shortfalls from previous agreements 
with ACC. Due to this additional funding requirement, NGB re-evaluated 
the ASA manning requirements during FY2008. This effort validated 67 
officer positions and 105 enlisted positions were required, but not 
funded for in the FY2008 budget formulation. The cost of the unfunded 
officer and enlisted positions in FY2009 is $11M in MILPERS. This will 
fund the required 67 officer positions and 105 enlisted positions that 
are still not funded from the FY2008 budget formulation. We continue to 
seek solutions for the additional manpower funding. [See page 38.]
                                 ______
                                 
            RESPONSE TO QUESTIONS SUBMITTED BY MR. COURTNEY
    General Blum. In August 2007, just prior to TRICARE Reserve Select 
(TRS) implementation, 5,157 Army National Guard members and their 
family members and 989 Air National Guard members and their family 
members were enrolled in TRS. As of April 30, 2008, 27,943 Army 
National Guard members and their family members and 8,595 Air National 
Guard members and their family members were enrolled in TRS. [See page 
32.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 1, 2008

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. LOEBSACK

    Mr. Loebsack. General McKinley, I have heard concerns raised about 
the lack of flexibility in the Active Guard and Reserve pay control 
grades. Specifically, the Iowa Air National Guard (ANG) has raised 
concerns about the need for growth in the number of control grades in 
order to provide greater flexibility in promoting the best Airmen to 
leadership positions. As I understand it, the ANG forecasts their 
control grades a year out and are then held to their projected numbers. 
Have you given any thought to the merits of increasing the number of 
control grade positions for each rank or to providing greater 
flexibility in the number of control grades provided each year?
    General McKinley. Thank you for the interest you have concerning 
the ANG controlled grade program. The AGR controlled grades are 
congressionally-mandated by USC, Title 10, Sections 12011 and 12012 
ceilings. These statutory ceilings are based upon overall AGR 
population and are not sufficient to cover all of the mission 
requirements within the ANG. Every state and territory has controlled 
grade shortfalls. As such, the ANG pursued controlled grade relief in 
the 2009 National Defense Authorization Act. The ANG's portion of the 
approved OMB submission to Congress increases the number of Colonel 
(O6) grades by 42 and Lieutenant Colonel (O5) grades by 97. We are 
hopeful that the legislation will be successful.

                                  <all>

</pre></body></html>
